<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                   

                         [H.A.S.C. No. 116-72]

                                HEARING

                                  ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2021

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                          THE FISCAL YEAR 2021

                     NATIONAL DEFENSE AUTHORIZATION

                         BUDGET REQUEST FOR THE

                      DEPARTMENT OF THE AIR FORCE

                               __________

                              HEARING HELD

                             MARCH 4, 2020

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-930                      WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------

                                     
                      COMMITTEE ON ARMED SERVICES
                      
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
VERONICA ESCOBAR, Texas              MICHAEL WALTZ, Florida
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
ANTHONY BRINDISI, New York

                     Paul Arcangeli, Staff Director
                 Katy Quinn, Professional Staff Member
               Jesse Tolleson, Professional Staff Member
                          Emma Morrison, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     3

                               WITNESSES

Barrett, Hon. Barbara, Secretary of the Air Force................     4
Goldfein, Gen David L., USAF, Chief of Staff, United States Air 
  Force..........................................................     5
Raymond, Gen John W., USSF, Chief of Space Operations, United 
  States Space Force.............................................     7

                                APPENDIX

Prepared Statements:

    Barrett, Hon. Barbara, joint with Gen David L. Goldfein and 
      Gen John W. Raymond........................................    61

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Brown....................................................    83
    Ms. Haaland..................................................    84
    Ms. Speier...................................................    83
    Mr. Waltz....................................................    83

Questions Submitted by Members Post Hearing:

    Mr. Cisneros.................................................    91
    Mr. Conaway..................................................    87
    Mr. Graves...................................................    87
    Mr. Lamborn..................................................    87
    Mr. Mitchell.................................................    91
    Mr. Scott....................................................    92
    Mr. Vela.....................................................    89
                
                
.                
                THE FISCAL YEAR 2021 NATIONAL DEFENSE

    AUTHORIZATION BUDGET REQUEST FOR THE DEPARTMENT OF THE AIR FORCE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, March 4, 2020.
    The committee met, pursuant to call, at 10:01 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. We will call the meeting to 
order.
    We are here this morning to continue our posture hearings 
in preparation for the 2021 NDAA [National Defense 
Authorization Act]. And this morning, we will hear from the 
Department of the Air Force and the Space Force Command on the 
budget request for their departments, the President's budget 
request from fiscal year 2021.
    We are joined by the Honorable Barbara Barrett, Secretary 
of the Air Force, and it is her first time before our 
committee, so welcome, and I look forward to your testimony.
    General David Goldfein, who is the Chief of Staff of the 
Air Force, and in all likelihood, this may well be your last 
time before the committee. So the beginnings and the endings, 
and we certainly appreciate your service and also your 
consistent candor before this committee and in working with us 
so well over your time as the Chief of Staff. We appreciate 
that leadership.
    And we are joined by General John Raymond, Chief of Space 
Operations for the U.S. Space Force. Not only is this his first 
time before the committee, but it is the first time having a 
representative from the U.S. Space Force, and the newly created 
U.S. Space Force. So we are very anxious to hear from you about 
how the setup of that is going.
    I thank our witnesses for being here. And I think that the 
challenge going forward, which we have talked about a lot in 
this committee is, as always happens with us, so you are 
consistently asked to do more than you have the resources to 
do, and how you manage that, I think, is the great challenge at 
the Pentagon right now, in terms of, you know, how do we figure 
out maybe to get more resources, how do we figure out to 
perhaps change what the strategy is to better match those 
resources. But in doing that, there is considerable risk in 
terms of how we make sure that we are prepared for what it is 
that we do choose to do.
    And I was particularly interested in the study that you 
did, I think came out, that said, you have roughly 319 
squadrons and you would like to have 386. And the trouble with 
that is you are highly unlikely to get 386. So I worry about 
what that means in terms of what our actual plan is and our 
ability to execute it. If we set up and say, well, we have to 
have this much, and we don't, then we are sort of scrambling 
around, unable to truly be prepared for any mission, since we 
are trying to prepare for more missions than we can possibly 
do, if that makes sense. I would like to know how we 
rationalize that.
    And also, something that has come up consistently is, so 
that is how many squadrons you want, but just with our 
discussion of ships and this mythical number of ships that at 
some point in the future we are going to have, the truly 
important thing is, how many of our squadrons, or ships for 
that matter, are operational. And that seems to have been a 
major challenge. We get consistent reports about, you know, 
pick an airframe there. We have, you know, 110 of them, but on 
any given day, only 60 of them are ready to go. Is there a way 
to improve that, and what are you focused on to make sure that 
if we have the actual piece of equipment, that it works? 
Because that is a frustrating misuse of resources if you have 
something and you can't get it to do what it is supposed to do.
    Along those lines, one of the ways that we have tried to 
rationalize the irrational situation I just described is by 
relying excessively on the OCO [Overseas Contingency Operations 
fund]. One of my all-time favorite things was the phrase they 
came up with last year where they actually eliminated the 
subterfuge and came up with something that they called FOCO--
fake OCO. Just being very honest about it. We just--you know, 
we want this money. We don't want to put it on the budget 
because we, you know, have budget caps to deal with, so we are 
going to call it emergency funding so it can be, you know, 
quote, off budget, unquote.
    And the Air Force relies quite a bit on that. I forget the 
statistics off the top of my head. I think it is like $21.6 
billion in OCO for the Air Force, and the estimates were, I 
think, less than $2 billion that was for actual overseas 
contingency operations. So, you know, how you plan to not rely 
on that long term is enormously important.
    And tied into all of this, as a number of members I am sure 
will raise, is the bitter irony that we also get your unfunded 
requirements list, while at the same time, we just had the $3.8 
billion reprogramming, where money, for instance, was taken out 
of the F-35 program, to go to the wall, which as Ms. Davis 
helpfully pointed out in an earlier hearing, is not in the 
National Defense Strategy at all. We are supposed to build the 
Pentagon budget and our strategy based on the National Defense 
Strategy. It doesn't say anything in there about money for a 
southern border wall, and yet we are going to take the money 
out of our programs, put it in there, and then come back to us 
and say, oh, it is an unfunded requirement. It is like, no, it 
was funded. You took the money and spent it someplace else. 
That is an enormous problem, and it is causing problems at the 
Department of Defense, and we should not simply let that go by.
    And then there is the Space Force. And I will tell you, I 
have always been fairly ambivalent about that. At the end of 
the day, I trusted Mr. Rogers and Mr. Cooper as the two chairs 
of the committee that created it, and I also trust the 
fundamental idea behind it, and that is that space is central 
to everything we do. It is the center of our command and 
control structure. It makes almost everything we do within the 
military operate. It deserved to have a special segment to make 
sure that we are training the people who work in that arena 
properly and for that mission. And I get that, I understand 
that, and I think it is a reasonable thing to do.
    The concern is, is it just another bureaucracy? Do we get a 
better, more focused look at how we take care of our space 
needs within national defense? Or do we get a bunch more 
generals and a lot more staff doing basically the same thing? 
And I think, General Raymond, that is your great challenge, is 
to make sure that it works in an efficient and effective way 
and isn't just another bureaucracy.
    And with that, I will yield to the ranking member, Mr. 
Thornberry, for his opening statement.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman.
    And let me join in welcoming each of our witnesses today. 
And if this should be General Goldfein's last appearance before 
the committee, I also want to thank him and Dawn for both of 
your service to the country over a long period. It has been 
exceptional and not just in your current position. And we are 
very grateful for all that both of you have done.
    There is no question this is a challenging time for the Air 
Force, not just because much of what we talk about when we say 
great power competition falls on y'all's shoulders, but also 
because there is this internal change going on at the same 
time.
    Now, we have dealt with such situations before, such as the 
end of World War II, and came out pretty well, but it is a 
challenging time for each of you. And like we talked about a 
bit last week with the Navy, I think what is most helpful is if 
we can have a--not necessarily every detail laid out, but a 
plan, an approach going forward.
    Now, that is particularly true when it comes to space, 
because you are a new organization. We are all beginning to 
think of space in different ways, as a warfighting domain, and 
we need that sort of vision about where we ought to go, but it 
is also true with the Air Force. The controversy over the last 
week was somebody saying, we don't need any manned fighters 
anymore. And technology is changing. Adversaries are changing. 
And so this vision of where we move forward, to me, is just as 
important as this particular year's budget request. They need, 
obviously, to go together. But as I say, there is a lot on 
y'all's plates, but I have full confidence in your ability to 
deal with it. Thanks for being here.
    I yield back.
    The Chairman. Thank you.
    Secretary Barrett. Or I am assuming you are going first. Go 
ahead.

 STATEMENT OF HON. BARBARA BARRETT, SECRETARY OF THE AIR FORCE

    Secretary Barrett. Yes, Mr. Chairman.
    Chairman Smith, Ranking Member Thornberry, members of the 
committee, thank you for inviting us to appear before you 
today. I am especially privileged to be joined by two exemplary 
chiefs, Chief Goldfein, on what may be his last appearance 
before this committee as the Chief of Staff of the United 
States Air Force, and the exemplary Chief Jay Raymond, who is 
the Chief of Space Operations and leading that in its standup.
    The international security environment changes 
unpredictably. China and Russia challenge American capabilities 
with new technologies and systems. Iran and North Korea 
threaten regional and global stability, while violent extremism 
remains a global menace. The National Defense Strategy calls on 
the Department of the Air Force as a critical component of the 
joint force to deter, and if deterrence fails, to defeat these 
threats.
    This fiscal year's--the 2021 budget request--sets the 
course for the Department to accomplish these aims. 
Specifically, the Department of the Air Force invests in future 
forces that allow us to connect the joint force, dominate 
space, generate combat power, and conduct logistics under 
attack. We will continue to present ready forces to combatant 
commanders as we defend the homeland, build strategic 
deterrence, and counter violent extremism.
    Finally, we will strengthen the foundation of our forces, 
our airmen and space professionals, as we develop and care for 
our people and their families.
    This budget submission shifts force design to create 
irreversible momentum toward achieving the mission of the 
National Defense Strategy, while growing strong and resilient 
leaders and families.
    The top policy priority for the Department is the 
successful launch of the United States Space Force. The space 
domain is integral to the joint team's success, not just in 
space, but in all warfighting domains.
    The Department of the Air Force supports a lean, agile 
Space Force to preserve access to space for America and our 
allies, while deterring and, if necessary, defeating malicious 
actors. The success of the United States Space Force will be 
measured by how well we protect freedom of access to, through, 
and from space.
    In space and air, our most important investment is in 
connecting the joint force. We are developing the technologies 
to connect every sensor, every shooter, and every echelon of 
command to enable seamless Joint All-Domain Operations. This 
battle network is essential to defeating current and future 
threats.
    We are also directing pivotal resources to recruit and 
retain the best people our Nation has to offer. We are an 
inclusive and diverse force and are modernizing our promotion 
system, while investing in the professional development of 
airmen and space professionals.
    The Department is expanding ongoing efforts to support and 
care for families. We are tackling privatized housing and PFAS 
[per- and polyfluoroalkyl substances] challenges. Along with 
our sister services, we encourage State reciprocity for 
occupational licensing for spouses and quality schools for our 
children. And we are investing in professionally designed and 
advised programs to reduce suicides and sexual assaults.
    To fund future air and space forces that are capable of 
defending the Nation against a peer competitor, we must divest 
some aging legacy systems. This budget retires limited numbers 
of aircraft, consolidating resources to increase readiness in 
remaining aircraft and invest in recapitalization and 
modernization. This includes investing in GPS [Global 
Positioning System] 3 satellites with signals that are three 
times more accurate and up to eight times more antijam 
resilient than previous generations.
    We thank this committee and the entire Congress for fully 
funding the recovery efforts to rebuild Tyndall and Offutt Air 
Force Bases. We will seek additional support as our 
installations and personnel assist with the ongoing COVID-19 
[Coronavirus Disease 2019] quarantine.
    Ladies and gentlemen, with your continued support, 
America's air and space forces stand ready. We look forward to 
your questions.
    [The joint prepared statement of Secretary Barrett, General 
Goldfein, and General Raymond can be found in the Appendix on 
page 61.]
    The Chairman. Thank you.
    General Goldfein.

   STATEMENT OF GEN DAVID L. GOLDFEIN, USAF, CHIEF OF STAFF, 
                    UNITED STATES AIR FORCE

    General Goldfein. Chairman Smith, Ranking Member 
Thornberry, distinguished members of the committee, it is an 
honor to present my last budget submission for the first time 
with both Secretary Barbara Barrett, the 25th Secretary of the 
Air Force, and General Jay Raymond, the first Chief of Space 
Operations. These are indeed historic times. So I will defer 
all discussion on space matters to Chief Raymond, but I want 
you to know, it is my top priority to make him and his new 
service successful.
    So my bottom line up front. This budget, building on the 
last three, offers the most aggressive package of strategic 
trades we have made as a Department in over two decades to 
achieve complete alignment with the National Defense Strategy 
and secure our Nation's military superiority for the next 
decade.
    Secretary Esper's guidance for this budget build was 
crystal clear. Build an Air Force and a Space Force that can 
compete, deter, and win shoulder to shoulder with our joint 
teammates and our allies and partners against a nuclear peer in 
an era of great power competition.
    This budget is designed to achieve this objective, and we 
are asking for your support to make the tough but necessary 
trades we will discuss today.
    In numerous war games against our best assessment of the 
threat in 2030 and beyond, as Secretary Barrett stated, we 
found that investment in four key areas provided the Air Force 
we need to prevail.
    First, this budget connects the joint force in ways we are 
not today connected in order to truly fight as a joint team. 
Under the leadership of our Chairman, General Mark Milley, the 
Joint Chiefs and combatant commanders are fully engaged in 
developing a new doctrine of warfare called Joint All-Domain 
Operations.
    Under this new warfighting construct, the Air Force is the 
designated lead service to connect platforms, sensors, and 
weapons from all domains, all services, and our allies and 
partners, so we can truly operate at the speed of relevance. We 
call it Joint All-Domain Command and Control, or JADC2 for 
short, and we are moving out quickly. Every 4 months, we host a 
demonstration and link joint capabilities that are not 
currently connected to advance Joint All-Domain Operations to 
the next level. I look forward to describing what we have 
achieved to date and where we are headed during questioning.
    Second, we must dominate space. Chief Raymond will cover 
investments in this critical domain of operations.
    And our third area of focus is generating combat power, 
beginning with our nuclear enterprise. This budget moves us 
forward to recapitalize our two legs of the triad and their 
critical nuclear command and control that ties it all together.
    Fourth, this budget invests in a new way of approaching how 
we keep our joint team deployed and sustained in contested 
combat environments. We must assume our logistics enterprise 
will be under attack.
    But the foundation of this budget submission is the 
greatest treasure in our Nation's arsenal, our airmen, and 
those who will join the Space Force. We look forward to working 
with this committee to ensure we keep faith with the airmen 
that will defend our Nation and support their families 
entrusted to our care.
    As this committee is aware of, the 2021 top line is 
relatively flat from last year, well short of the 3 to 5 
percent growth required to properly support the NDS [National 
Defense Strategy]. In a flat-budget environment, if a service 
is to move forward, it must do two things. It must make better 
use of what it has by connecting all platforms, sensors, and 
weapons in a battlefield network, JADC2. And it must find 
internal savings to pay for new capabilities.
    So Chief Raymond and I held our own ``night court'' and 
identified $21 billion across the FYDP [Future Years Defense 
Program] by retiring the oldest of our legacy weapon systems 
that are either not survivable or do not contribute 
significantly to the 2030 peer fight.
    Not one of these trades is easy. Every weapon system we are 
asking to retire has performed well in the current fight, but 
many are at the end of their service life and have no future in 
a nuclear peer fight. This is today's hard reality.
    Not surprisingly, of the services, the air and space forces 
have the largest classified portfolio of investment. This makes 
the story harder to tell, since most of what we are retiring is 
unclassified and visible, while many of our game-changing 
investments are classified and therefore invisible.
    And we want to thank many of you for taking our classified 
briefing and offer it to any of you or your staff between now 
and endgame. When you see what we are trading for, our budget 
submission will make perfect sense.
    If we are to achieve truly meaningful gains for our 
Nation's security through implementing the NDS in a flat-budget 
environment, we must work together on these hard trades.
    Chairman, I am honored to be the 21st Chief of Staff of the 
Air Force. If we go to war this year against a nuclear peer, I 
am a hundred percent confident we have what we need to win. And 
I can say that because of decisions made by our predecessors, 
men like John Jumper and Mike Ryan. Such is the lead time for 
building an Air and a Space Force.
    I believe it is our job to ensure that when Air Chief 24 
sits in front of this committee in 2030, side by side with 
Space Chief No. 4, they will be able to state with equal 
confidence that our Nation's Air and Space Forces have what 
they need to win. And with your support, we can achieve this 
goal.
    Thank you, sir.
    The Chairman. General Raymond.

    STATEMENT OF GEN JOHN W. RAYMOND, USSF, CHIEF OF SPACE 
             OPERATIONS, UNITED STATES SPACE FORCE

    General Raymond. Chairman Smith, Ranking Member Thornberry, 
distinguished members of the committee, it is an honor to 
testify before this committee this morning. And this is my 
first appearance in front of the entire committee, and I think 
it underscores the significance our Nation has placed in 
elevating space to a level commensurate with its importance to 
national security.
    Since the historic establishment of the United States Space 
Force on December 20, 2019, we have been moving out with speed 
and focus to meet the requirements of the National Defense 
Strategy. As the Air Force's first--as the Space Force's first 
Chief of Space Operations, I am humbled by the great 
responsibility entrusted to me. And on behalf of the space 
professionals that I am privileged to lead, I would like to 
personally thank you for your leadership in establishing our 
new service.
    Under the strong leadership of Secretary Barrett--and I 
would note that the Secretary made the establishment of the 
United States Space Force the number one priority for the 
Department of the Air Force--and shoulder to shoulder with my 
partner and fellow service chief, Dave Goldfein, we are 
establishing a Space Force that is lean, agile, and mission 
focused. You have given us an opportunity to build this service 
to enhance the lethality of our joint force, while optimizing 
our ability to dominate in space.
    I want to also, if you wouldn't--if you would allow me to 
take a minute to thank Dave and Dawn Goldfein for their 
leadership in the United States Air Force. I have had the 
privilege of serving under General Goldfein's leadership for 
several years, and I have known him longer. I will tell you, 
leadership is a team sport, and there is no better team to 
follow than Dave and Dawn Goldfein. So, sir, thank you.
    For decades the United States has had the luxury of 
operating in a benign space environment, operating the world's 
best capabilities to fuel our American way of life and our 
American way of war. Today, potential adversaries have taken 
notice and are catching up fast. Although we remain the best in 
the world, our advantage is eroding as adversaries are building 
space capabilities for their own benefit and fielding 
counterspace systems to negate our access to space and the 
advantage that that access provides to our Nation and those of 
our allies.
    This budget prioritizes space. It funds it to a level of 
$15.4 billion, representing approximately $900 million increase 
this fiscal year. Specifically, the budget funds for a strong 
pivot toward space superiority and the foundational elements of 
space situational awareness, command and control, and training 
infrastructure that is required. Our National Defense Strategy 
demands it, and I appreciate the support you have provided over 
the last couple of years, and I ask for your strong support 
once again.
    You know, it has been 73 years since the United States 
established a separate armed service. That was the Air Force. I 
have spent 35\1/2\ years in that service, proudly in that 
service, but in December, I transferred over to the Space 
Force, and now I am about a little over 2 months in. We have 
been given an unprecedented opportunity to build a service 
unconstrained by past constraint--constructs and thinking. And 
we are taking full advantage of this occasion to do just that, 
with a forward-looking, innovative approach that seeks to 
optimize manning, flatten organizations, and streamline 
processes necessary to move at speed.
    When fully established, we may not look like the other 
services you have become accustomed to, but we will be equally 
proficient at providing space forces ready and willing to 
protect the U.S., allied interests, in space, while providing 
unequaled capability to the joint force. This is critical given 
the warfighting domain that we find ourselves in today.
    To that end, I am so proud of the professionals that I am 
privileged to lead. They are conducting their mission with an 
eager boldness that will ensure America remains the best in the 
world at space, and we look forward to your questions. Thank 
you for the opportunity.
    The Chairman. Thank you all very much.
    I have, I will say, many, many questions, but I will narrow 
it down to one because I have had the opportunity to speak with 
you before. This part of the discussion on the budget about, in 
the nuclear area, General Goldfein, the NNSA [National Nuclear 
Security Administration] budget was roughly $17.5 billion. 
There was concern about that, and at the last minute, there was 
$2.5 billion put back in and taken away from some other things, 
and those some other things are not happy about it.
    But for the moment, focusing on that $2.5 billion, can you 
explain to us, what it is, how important it is to the overall 
nuclear enterprise, and if it is important, why the President's 
original budget didn't have it in it?
    General Goldfein. Sir, as you know, there is a balance 
between NNSA that gives us the actual warheads and then the 
Department of Defense.
    The Chairman. Understood.
    General Goldfein. And it is always a balancing act between 
the two. And as I understand, at endgame, when they took a look 
at the investment that we required to get the warheads we need, 
balanced with the investment we are making in the enterprise 
for the bomb bodies delivery mechanisms, that the Department 
made a decision at the OSD [Office of the Secretary of Defense] 
level to put money in the NNSA account. So that is about as 
much detail as I understand on that.
    The Chairman. Okay. Well, you are putting together the 
nuclear enterprise here. So you got the $2.5 billion, you don't 
got the $2.5 billion. How does that affect your ability to get 
our nuclear forces where you think they need to be?
    General Goldfein. Sir, right now, the impact has been 
minimal on the Air Force based on the fact that what you will 
see in our budget is fully funded for our nuclear programs. So 
we were able to put the money that is required for the B-21, 
the Long-Range Standoff, and the Ground-Based Strategic 
Deterrent, those are fully funded in our program. So the 2.5 
actually didn't have an impact on the Air Force.
    The Chairman. Well, no, I understand that. I am speaking to 
you as the person who is--and I also understand that NNSA is in 
charge of, you know, giving you the material you need to put 
into all these things.
    General Goldfein. Yes, sir.
    The Chairman. But you are kind of overseeing to make sure 
that you don't just have a B-21, you actually have the nuclear 
missiles in it----
    General Goldfein. Right.
    The Chairman [continuing]. To make it useful. So you don't 
have an opinion on that $2.5 billion fight?
    General Goldfein. Sir, I don't. Only because it was 
happening at a much higher level. You know, what we brought 
forward was a fully funded program for all of the portions that 
the Air Force is responsible for.
    The Chairman. Understood.
    General Goldfein. One of the areas that is very similar to 
what you are describing is nuclear command and control, and 
making sure that our portion, which is about 75 percent of what 
all comes together--and maybe Chief Raymond may pitch in here, 
because so much of what we do in nuclear command and control is 
actually done from space. But we also needed to make sure that 
that portion was fully funded.
    The Chairman. Understood. I will--that is all I have. I 
will yield to Mr. Thornberry.
    Mr. Thornberry. General Goldfein, you were describing what 
is required to keep the Air Force moving forward in a flat 
budget. I would respectfully add one more thing to your list, 
and that is, get your money on time. Because you can do more if 
you have got a whole year to plan versus some of the other 
alternatives. And that makes a difference too.
    Let me pick up on kind of--part of where the chairman was 
going. So the Air Force is responsible for two legs of the 
triad, plus a large part of nuclear command and control. There 
are some people who suggest, well, it is not that big a deal if 
we can delay replacement of the land-based leg of the triad, 
or, you know, maybe manned bombers are a thing of the past. Can 
you just briefly describe your view on where we are with those 
programs that are under the Air Force's responsibility and how 
much slack there is or is not in the schedule and funding for 
them.
    General Goldfein. Yes, sir. Unfortunately, we have actually 
delayed this recapitalization point where we really don't have 
any slop left in the schedule. The ground bases--you know, the 
Minuteman missile is 44 years old. We are getting to a point 
where there is time components in that missile that you 
actually no longer have vendors that can produce those, so--and 
we are, quite frankly, we are behind our adversaries in many 
ways. Russia has actually completed its triad recapitalization, 
and we are actually just getting started in ours.
    So we really have not allowed any slop in the system right 
now for us to be able to go forward and do anything but 
recapitalize all three legs.
    And I would just finish on saying that the Nuclear Posture 
Review that we all went through reconfirmed the need for all 
three legs of the triad. And I think Admiral Richard confirmed 
that as well in his testimony early last week.
    Mr. Thornberry. Okay. General Raymond, one of the questions 
involving Space Force is, who is responsible for space 
acquisition? And I know there is a bit of a tussle maybe--or I 
understand there may be a bit of a tussle going on in the 
Department and so forth. Can you just give us a few comments on 
space acquisition, who decides, and how you see that going 
forward?
    General Raymond. That is a great question. I think one of 
the benefits of standing up a Space Force, near-term benefits, 
will be to bring some unity of effort across the Department 
towards that end.
    One of the homework assignments that was in the NDAA was 
for us to come back to Congress with a process for how we 
wanted to do acquisition. We are going through that right now. 
In my opinion, I think there is a way to do this to, one, keep 
the speed up, because we have to move fast. Two, unite efforts 
across a group of folks that do this, towards a common 
architecture so that we are all growing in the same direction, 
and reduce duplication.
    I am excited for the prospects, and I think you expect the 
Space Force to deliver that to you, and we are working that 
hard. We have already got the team putting that together. I am 
going to see the draft of that this next week, and it will be 
coming to meet the timelines that Congress laid out.
    Mr. Thornberry. Thank you.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    General Goldfein, I am also the chair of the Aviation 
Subcommittee, and so we deal a lot with pilots and pilot 
shortages, and so I wanted to ask you about how the U.S. Air 
Force is thinking about pilot shortages. And as well, maybe the 
bow wave, the idea of the recapitalization and the kind of 
platforms we might be flying and where that--where the numbers 
of seats and the number of rear ends in the seats meets the 
number of platforms that actually need them versus the 
transition to unmanned.
    General Goldfein. Now, thanks, sir, and thanks for your 
leadership on this. You know, we said from the beginning, this 
is a national-level issue, not an Air Force-level issue. The 
Nation actually is not producing enough pilots to service 
military, commercial, and business aviation. From the military 
standpoint, as the airlines continue to hire in large numbers, 
we are about holding our own, I would describe right now, in 
terms of our pilot shortage. We are about 2,000 short. We have 
been about 2,000 short. That is against a denominator of about 
a 21,000-pilot requirement across the Air Force. We are 
starting to see positive trends in terms of retention, but it 
is too early to declare any kind of victory.
    Congress has been very helpful with the authorization you 
have given us for bonuses, but I will tell you that most pilots 
are not truly motivated by money. It is very important to them, 
but they are motivated by quality of service. And everything we 
are doing as an Air Force is ensuring that flying in the United 
States Air Force is as rich an experience as we can make it. 
And we are making that rich at the squadron level. So I am 
seeing positive trends, but right now, we are sort of holding 
our own.
    Mr. Larsen. Okay. So a couple of things that your Air Force 
is doing, one is on using AI [artificial intelligence] and 
predictive maintenance to save costs and then the digital 
design technology application of that to the T-7. But in your 
testimony, especially on the T-7, you talked about how it is 
saving money. So given that you have had--you found $21 billion 
in savings to reinvest, for those two examples, would we find 
that in the budget, where the money has been saved and has been 
put back into something else, whether it is because of the 
application of a new design, a manufacturing process, or 
because of the money you saved on predictive maintenance?
    General Goldfein. Sir, in a flat budget with less spending 
power, you are not going to see that money--as much of that 
money in terms of increased investment. What you are going to 
see that is filling the holes we have in weapon system 
sustainment.
    So you talked about two areas, one which is, how do you use 
artificial intelligence when it comes to predictive 
maintenance. We have three weapons systems now that we are 
taking commercial best practices, C-5 as an example, and using 
predictive maintenance to make sure that we decrease the amount 
of time in depots, be more predictive about when we need to put 
them in depot, and we are actually saving a lot of time and a 
significant amount of money, we are reflowing that back into 
weapon system sustainment to drive our readiness rates up.
    On the T-7, here is, to me, the most exciting thing about 
the T-7 when I went out and took a look at it. They engineered 
this aircraft through digital design, which is different than 
digital manufacturing. They actually designed it through 
digital means so that they were able to marry a fuselage with 
the wing in some number of hours with like four people. That is 
unheard of in the business of aircraft manufacture. So not only 
are we designing things well, we are building them more 
effectively and more efficiently. That is going to result in 
savings.
    Mr. Larsen. Okay. General Raymond, I had a question for you 
too, but why don't I ask you this, and then you can--and with 
the time left, I will be quick. But the question for you is 
about space professionals. And given your standing up the Space 
Force, how many folks you are moving over, but where are your 
gaps in people that you need to develop to fill in those gaps?
    General Raymond. We have--so, today, there is one person in 
the United States Space Force. That is me. And so----
    Mr. Larsen. You are doing a great job.
    General Raymond. There is plenty----
    Mr. Larsen. Or he or she is doing a great job, whoever that 
is.
    General Raymond. In a couple weeks, we are going to swear 
in No. 2, and that is Chief Master Sergeant Roger Toberman. 
There is incredible interest in this. This May, we are going to 
direct-commission just shy of 65 cadets from the Air Force 
Academy directly commissioned into the United States Space 
Force. We just advertised 40 positions, civilian positions, for 
the staff at the Pentagon. We had over 5,000 applicants for 
those 40 positions.
    There is an excitement about space in every single sector. 
And so where we are focusing on is not the support part. We are 
going to rely for about 80 percent of our--of that work all is 
going to be relied upon on the Air Force. What we are doing is 
building a mission-focused space expertise with some related 
engineering, data, software, cyber, that will be necessary to 
fight and win this fight going forward.
    Mr. Larsen. All right. And I will come back to you later on 
a tech question. Thank you.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I just want to clarify a few comments by the chairman with 
respect to the NNSA budget. There really is only--and I agree 
with the chairman on the need for clarification for the NNSA 
budget so that we have kind of a debate and, hopefully, a 
clarity on the efficiency and effectiveness of what we are 
spending there. We just had a hearing in the Strategic Forces 
Subcommittee yesterday where the Administrator, Lisa Gordon-
Hagerty, testified.
    The only original budget of the President's budget is the 
President's budget. There are always documents that are 
floating around of requests for different levels. NNSA's 
original request by the Administrator was for the 19-plus 7--I 
think 19.7, that actually has moved forward in the President's 
budget. I know the President was always in support of that full 
amount. So we would always hope that as the President puts his 
budget together, that there is full discussion as to increase 
or decreases.
    But, General Goldfein, I want to thank you for your 
service. I want to thank you for everything that you got us 
through, sequestration, the difficulties of the effects upon 
readiness, and seeing the advances that our adversaries have 
made in both missiles and fighters and cyber and unmanned 
aerial systems, and the need to then fashion a force that can 
face that in the future.
    I do want to go back to the chairman's issue on the NNSA 
budget. I know that you are not in charge of that budget. NNSA 
is under DOE [Department of Energy], not DOD [Department of 
Defense], so you wouldn't have been part of putting that 
together. I can understand your reticence there of wanting to 
comment on the elements in their budget. However, Admiral 
Richard from USSTRATCOM [U.S. Strategic Command], commander, 
testified recently before us that failure to undertake the 
NNSA's modernization plan would be the effect of unilateral 
disarmament.
    General Goldfein, you know what the condition is of our 
nuclear forces and what we are facing. Do you agree with 
Admiral Richard?
    General Goldfein. Sir, I do.
    Mr. Turner. Okay. Excellent.
    Madam Secretary, as we go forward with Space Force, I agree 
with the chairman, we have to make certain that what we are 
doing is effective and efficient, that we don't just build new 
bureaucracies, that we don't duplicate things.
    Secretary of Defense Esper was in front of us, and I raised 
the issue of NASIC [National Air and Space Intelligence Center] 
with him. And General Raymond was before the Strategic Forces 
Subcommittee, and I raised NASIC again with General Raymond.
    As you know, the National Air and Space Intelligence Center 
actively works to bring together intelligence, both from our 
space assets and looking at the threats that we face in the air 
and the space. Secretary Esper has been to NASIC. I just spoke 
before the McAleese Defense Program Conference, and my first 
question was about NASIC, and it wasn't from someone from Ohio, 
and it wasn't from someone from Dayton. So even though this is 
a parochial issue, it is, I believe, an operational issue for 
the Air Force.
    Secretary Esper said that we do not want to, as we look to 
creating assets that are dedicated to the Space Force, break 
anything that works, duplicate existing missions, or--and we, 
of course, want to avoid unnecessary redundancies. When you 
look to the issue of a National Space Intelligence Center, I 
would like if you would comment, because there are a number of 
people throughout the Air Force enterprise that are as excited 
as General Raymond said about joining the Space Force and 
making sure that it is successful, but at the same time, don't 
want the things that we currently have broken or diminished. If 
you could speak about that for those who are serving at NASIC, 
I think it would be very beneficial for them. Madam Secretary.
    Secretary Barrett. Representative Turner, the NASIC is a 
national treasure. What it provides is very important to the 
entire Department of the Air Force. And with the support of the 
Secretary of Defense and the intelligence community, we would 
intend to continue and to count upon, rely upon, and not break 
the expertise that is found at NASIC.
    Mr. Turner. Thank you, Secretary Barrett.
    General Goldfein, we are all concerned about pilots and the 
pilot shortage. In looking to the fiscal year 2021 request, 
there are a number of people who are concerned obviously that 
it looks like you are decreasing the number of new pilots that 
would be in the process through funding. Could you explain that 
to us and give us some insights there?
    General Goldfein. Sir, actually, we have gone from about a 
little over 1,100 pilots that we produced in 2016 to about 
1,300 in 2017. We are on track to produce 1,480, that is our 
target. And we think if we can get 1,480 a year, we are on 
track to doing that in 2024 and no later than, then we will be 
able to keep a steady state of what we need to be able to fly.
    Part of what is going on with the reduced numbers is a 
combination of grounding. This last year we had some issues, as 
you remember, with the T-6 and the oxygen system, and so we 
lost a number of sorties that we are not going to be able to 
make up. So the numbers, we didn't hit our goal last year.
    So now what we are doing is trying to look at a combination 
of Pilot Training Next, which is using new technology to train 
in a different way but to the same or higher standard, to be 
able to shorten the course length and increase more pilots. 
When I went through----
    The Chairman. And I am sorry, if you could wrap up that 
point, the gentleman is over time. Want to get to the other 
members, but I don't want to interrupt you if you could just 
wrap up.
    General Goldfein. If there is time later, I can talk about 
Pilot Training Next. We are using new technology to train 
differently.
    Mr. Turner. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Garamendi.
    Mr. Garamendi. General Goldfein, thank you for all the 
years. It has been a pleasure working with you, and I am sure 
all of us will miss your competent work.
    Several things are on my mind. Just keep in mind that there 
is an $8 billion reserve account in the NNSA that apparently is 
to be used some day somehow. So what is another $2 billion for? 
Good question. We should ask that question. Which brings me to 
an accounting issue. So you are moving money back and forth 
within the Air Force accounts, weapons sustainment, money 
moving here from flight time, and around OCO money moving--I am 
not going to get into it, but I am asking my staff to get into 
the details of your accounting system so that we can understand 
where the money is and for what its purpose is. So not here, it 
is far too much detail.
    General Raymond, with regard to the Space Force, good. 
Eventually, you will have a--the entire force in hand. I would 
ask you to keep in mind the role that the National Guard 
currently plays in space, not only in California at Beale Air 
Force Base, which is significant, how you move that in is going 
to be extremely important to maintain the capabilities that you 
presently have. I would urge you not to break it up. Bring it 
in in whole, and we can go into that in detail, as I did 
yesterday at the hearing.
    The F-35. Two things about the F-35. One, the ALIS 
[Autonomic Logistics Information System] system, I guess we can 
solve that problem by giving it a new name. Probably not. 
Although that seems to be what would be happening here. Heads 
up, we are not going to back off on this. The spurs are on, and 
we are going to ride hard until we get this resolved. It is a 
readiness issue. It is also an issue for my colleague over 
here, Mr. Norcross.
    Quick comment on it, Secretary Barrett, Goldfein, either 
the two of you or both, can I count on you getting this 
resolved?
    Secretary Barrett. The F-35 is of urgent importance to us. 
We are counting on----
    Mr. Garamendi. How will you get it resolved?
    Secretary Barrett. And I will ask the hief to address that.
    General Goldfein. So I sat down with the CEO [chief 
executive officer]--all the CEOs and told them point blank, I 
am going to get a question in Congress, and the question is, 
why are you buying--why should we buy you more F-35s when you 
can't sustain the ones you have and they are too expensive to 
fly. And I said, I have got to have a better answer to that 
question. They got on it.
    I went down to Lockheed, I spent an entire day with them. 
ALIS to ODIN [Operational Data Integrated Network] is not just 
a name change. We are involved in the requirements for that 
system. Our Kessel Run software designers and developers are 
deeply involved in this, and we are having a far more mature 
discussion about data that we need to have. But, sir, we need 
this committee to keep its boot on the throat of this program, 
along with us, to make sure that we drive these costs down. 
Because right now, it is not affordable.
    Here is the good news. I have seen more movement on this in 
the program in the last 6 months than I have seen in the last 2 
years.
    Mr. Garamendi. Well, I think Lockheed Martin is here in the 
audience, and they know that they are in deep trouble, and so 
are you. This has to be resolved. It cannot continue on, and, 
yes, ALIS is only one piece of the problem. There are the 
depots, and this cuts across all the departments, and it is a 
problem for each and every department. We will start, since you 
are here--heads up, we will get into it in detail offline, but 
know that this is a major, major concern.
    You are moving into this joint-domain issue in a very big 
way. You have moved a lot of assets out of the--what I would 
call readiness, that is here and now, at least for the next 
decade, moving those assets over to the 2030 period of time, 
when most of this will come online. There are significant 
concerns: KC-10s, KC-35s disappearing. Really? TRANSCOM [U.S. 
Transportation Command] says, well, maybe not a good idea. 
Could you please comment on this issue? And I understand you 
are rethinking this part of the budget.
    General Goldfein. Sir, this is the common tension that you 
will always see between a combatant commander that has a near-
term requirement and a service chief that is building a force 
to win in 2030. And so we could have the same discussion about 
tankers, fighters, bombers, command and control, ISR 
[intelligence, surveillance, and reconnaissance].
    So in the tanker business, two options, two that I want to 
tell you. First of all, if we go to war into a high-end fight, 
in terms of mitigation, we have already told the combatant 
command and the Secretary of Defense that we would put every 
KC-46 into a high-end fight.
    Mr. Garamendi. Even though it doesn't work?
    General Goldfein. We would not use it for day-to-day 
operations, but we would use it for high-end combat operations. 
What we are asking for is a 3 percent retirement, representing 
3 percent of the KC-135 fleet. And so we are working through 
that with the Secretary of Defense now, but it is a reasonable 
trade.
    The Chairman. Thank you.
    Mr. Garamendi. I understand you have a 25 percent failure 
rate on the----
    The Chairman. Actually, if I could ask this question. The 
comment under his breath there that I think you missed was the 
notion that the KC-46 fundamentally doesn't work. I think that 
is actually an important question to address before we move on. 
Does it have problems or does it fundamentally not work?
    General Goldfein. Sir, we are having significant issues 
with the remote visual system. It is a hardware problem that 
requires a hardware fix. I sent a letter to the CEO, Mr. 
Calhoun. He came to see me 3 days later. We sat down, he 
committed to me that this is his number one priority for 
getting this back on track. I have seen a different behavior 
from that company since he has taken over. We are on final. So 
I want to be careful about negotiations, but we should have a 
good fix.
    The Chairman. Of the many issues in your portfolio, getting 
a clear picture as to how we get the KC-46 to actually function 
like it is supposed to is a pretty big one. So we will 
definitely--I know Mr. Norcross will definitely be following up 
with you on that as well.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    I want to thank all three of you for your contribution to 
our national defense, and, General Goldfein, you will be 
missed.
    My first question is for Secretary Barrett and General 
Raymond. It has been a pleasure working with both of you 
throughout the standup of Space Command and the creation of 
Space Force. As you know already, I believe that Colorado 
Springs is the best option for that permanent location--we have 
had this conversation a time or two, actually more than that--
based on many factors, ranging from location, civilian and 
military workforce, existing infrastructure and capabilities, 
and quality of life for service members and their families. But 
I am not going to go into that today.
    When it comes, though, to the Guard and Reserve personnel, 
one of the four space wings which are in Colorado is an Air 
Reserve Component of the Air Force. And there are also 630 
National Guardsmen conducting space missions in our State. The 
synergy that we see between Active Duty and Reserve Component 
in space operations multiplies the capacity of the force, saves 
money, and retains talent.
    Now, I am aware that there is a proposal to continue to 
study the role of the Reserve Component as it relates to the 
Space Force, but I believe this delay would create a gap in 
continuity for the space operators currently in the National 
Guard and jeopardizes the readiness of these unit-trained and 
equipped formations.
    So my question on this, is there anything holding back the 
establishment of a Space National Guard in this coming year?
    Secretary Barrett. We were very much--we cannot go to war, 
we cannot do our jobs without the Guard and Reserve. They are 
very much valued partners in the process. The Space Guard and 
Reserve, we are going to spend a little time looking at to 
incorporate that workforce in a way that we might be building a 
new design, a new paradigm for how that is done. The chief has 
given a great deal of thought to it, and I would invite his 
comments.
    General Raymond. Congressman, I agree with everything you 
said. We are reliant on the Guard and Reserve today; the 310th 
Space Wing at Schriever, the wing you were talking about, there 
is about 1,400 guardsmen between the Army and the Air Force 
that provide space capabilities as well. We rely on them today, 
and we are going to need that in the future.
    We have been directed by law to do a review of this, and so 
we are going to follow the law. The National Defense 
Authorization Act of 2020 tells us to do this review. We are 
going to do this review. We have an opportunity to look at how 
would we do this, and are there more efficient ways to do it 
for a service that is going to be about 16,000 people that is 
custom built for this domain. So we are going to do that. We 
will meet the requirements of the law, but I will assure you 
that there is going to be no lapse in capability that is 
provided today. The Guard and Reserve can fully support what we 
are doing today, as they are today, and we are going to move 
out diligently with speed to answer Congress with the direction 
that we were given in law.
    Mr. Lamborn. Okay. Thank you both for that answer.
    And, General Raymond, as best as you can in an open 
setting, can you share with us some of the characteristics a 
permanent national security space command and control center 
needs to have to successfully fight and win wars that extend 
into space?
    General Raymond. We have two really successful C2 [command 
and control] centers today. One is in Schriever Air Force Base, 
the National Space Defense Center. One is at Colorado Springs. 
You have to have the ability to ingest data. You have to have 
the right expertise. You have to have relationships and 
connections with our allied partners. You have to be able to 
communicate broadly with all those that you have to communicate 
with, including those that are forward in theater. Those are 
some top-level items that I would put at the top of the list.
    Mr. Lamborn. Okay, thank you.
    And then my last question, General Raymond, I know you had 
a space warfighting doctrine conference at Peterson Air Force 
Base in January to coordinate and move forward with writing the 
document that will dictate how our joint force will fight wars 
that extend into space. And I believe it is accurate to say 
that your work, that product, will be used to determine the 
finalized force organization and equipment requirements for our 
space warfighters.
    So where are we at? What is the status report on writing 
the Department of Defense's space warfighting doctrine, and 
when do you think this will be finished, and how is it coming 
along?
    General Raymond. Thank you for the question. We have had 
space doctrine before. It is doctrine that was built largely 
for a benign domain. That is not good enough today. And if--on 
20 December, when the U.S. Space Force was stood up, one of the 
fundamental things, in my opinion, that an independent service 
has to do, it has got to develop its own people and it has to 
develop its own doctrine. And so we pulled the team together. 
We put a first draft of a--what we call a capstone document. 
That will continue to get further reviewed here over the next 
couple of months, and then we look forward to publishing that.
    And then there will be several series, levels of doctrine, 
including joint doctrine in my U.S. Space Command hat, that we 
will also follow.
    Mr. Lamborn. Okay, thank you so much. I appreciate your 
service.
    Mr. Chairman, I yield back.
    Mr. Larsen [presiding]. Thank you, Representative Lamborn.
    The chair now recognizes Representative Norcross for 5 
minutes.
    Mr. Norcross. Thank you.
    First of all, General Goldfein, thank you so much for your 
service over the years, and we particularly appreciate your 
frankness when you address so many of our tough questions. But 
I want to follow up on the question of the KC-46s.
    Mr. Larsen. Representative Norcross, can you pull the 
microphone really close to your mouth? Thanks a lot.
    Mr. Norcross. The KC-46s. We are retiring some of the 135s 
at a little bit more of an accelerated pace than we expected, 
along with KC-10s. But as said, and you mentioned it earlier, 
in a high-end fight, we could use the 46s. Describe to us what 
a high-end fight looks like.
    General Goldfein. Sir, if we would go to a high-end 
contingency fight, either a peer fight or one where the 
Secretary of Defense asked me whether in high-end combat 
operations, whether I would be comfortable using the KC-46, I 
would take that risk. We have already done the operational 
analysis, and we would do that. We will not take that risk 
during day-to-day operations, and it has to do, quite frankly, 
with the remote visual system that very quickly the last 10 
feet, when the boom operator is trying to plug the receiver, 
the system was not designed well in terms of that final focus. 
So we are having more out of, you know, contacts around the 
airplane.
    I would take that risk in combat. I would not take that 
risk in day-to-day operations.
    Mr. Norcross. That describes it. The stiffness of the boom 
is only with the A-10, which may or may not be part of that.
    Just want to switch over to the modernization, talking 
about the ISR. There is not a combatant commander that we have 
a discussion with, there is virtually nobody we deal with, day 
to day, who doesn't need more. Yet it appears that we are going 
to cut this high and dry, and particularly notable is the 
Global Hawk, Block 20 and 30. Would you walk us through that 
decisionmaking? Because it appears we are going to have a real 
lull here.
    General Goldfein. Yes, sir. There is no better example I 
can give you of how when we connect sensors and shooters and 
weapons together in a networked approach, we actually bring up 
capability and capacity because we are taking use--making use 
of those that are not connected today. So what I can't describe 
for you in an open hearing, and I would love to do in a closed 
session, is where we are going on the classified side in terms 
of bringing survivable capability together that offsets some of 
what we are trying to take down in the--in those that are not 
survivable.
    But when you tie them together, and you get the sensors 
actually comparing and fusing information, you actually 
increased your capacity of ISR.
    Mr. Norcross. We understand. We were just out at Palmdale 
to see some of what we are doing. But for that 4-year period, 
there is what they are calling a bathtub effect as we are going 
down to zero, in producing those new ones. What you just 
described to us is going to take the place of those new planes 
that we would have instead of those?
    General Goldfein. Not one for one, but there is absolutely 
a replacement there. But there is also a factor that we have to 
think about which is, you know, everything we produce in all 
the services, is a standalone operating computer and sensor. 
And when we can tie those computers--think about, you know, 
anything that rolls, submerges, floats, flies, or orbits is a 
sensor. When we can actually fuse and make use of that 
information and not do it independently, you actually get a 
much better picture with greater fidelity earlier in the fight 
than if you just operate on a standalone basis. And that is 
why, as we move from platforms to networks, we actually 
increase our capability.
    Mr. Norcross. So we would expect to hear from our combatant 
commanders that their view is going to change in asking for 
this, so that will be a cultural change we will have to deal 
with.
    For my remaining time, I yield to Mr. Crow.
    Mr. Crow. Thank you, Mr. Norcross.
    Thank you to all of you for your testimony today.
    Secretary Barrett and General Raymond, I have appreciated 
your discussions on Space Force. As you know, I represent 
Buckley Air Force Base in Aurora, which is about to become 
Buckley Space Base next month. Could you provide a quick update 
for us on the timing of the basing discussion for U.S. Space 
Command and the criteria being used? And I affiliate with Mr. 
Lamborn's comments on the importance of Colorado. Of course, I 
think Buckley is just slightly better than Colorado Springs on 
the basing.
    Secretary Barrett. Well, we are all very excited about the 
future there. With the standup of the Space Force, much of what 
had been operating in Colorado is moving to Washington--or 
there will be some that will move to Washington. As we redesign 
that system, we are going to reopen the process and put forward 
criteria in detail and invite all who think they have a good 
shot at it to come and represent their communities for that 
possible basing.
    Mr. Crow. And when will that reopening occur?
    Secretary Barrett. That will be--this spring it will be 
announced.
    Mr. Crow. Thank you.
    Secretary Barrett. So the chief may have further to add.
    The Chairman [presiding]. Thank you. Actually, we are out 
of time at the moment.
    So, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    I thank each of you for being here today, and I especially 
appreciate your service. I am the son of--he was a--he is a 
late veteran of the 14th Air Force. He cherished his service 
with the people of India and China, and that was always 
meaningful to me. And then growing up in the ``Holy City'' of 
Charleston, South Carolina, we appreciate the Charleston Air 
Force Base and the capabilities, the C-17s, everything there.
    Additionally, I am the grateful uncle of a member of the 
Air Force, a Citadel graduate, so obviously a very bright 
fellow. So thank you for being here.
    And, Secretary Barrett, F-35 aircraft provide peace through 
strength. There are 11 companies in South Carolina who provide 
the equipment for the F-35. We are grateful that the Marine 
Corps Air Station Beaufort is home to F-35 pilot training and 
will eventually have up to 90 F-35B aircraft, and the people of 
Beaufort County love the sound of freedom. We would gladly 
welcome also F-35s at McEntire Joint Air Base and Shaw Air 
Force Base.
    The Air Force 2021 unfunded priority list requests an 
additional 12 F-35s. And, Madam Secretary, fifth-generation 
striker--strike aircraft capability is a top priority of the 
Air Force. What can be done to promote 60 F-35As in your 
budget?
    Secretary Barrett. Mr. Wilson, we would be delighted to 
have those additional aircraft, of course, but we have to live 
within the budget proposal put forward, and we, of course, will 
comply beyond that. And I would invite the chief to add to 
that.
    General Goldfein. Sir, we ended the last discussion of the 
F-35 on a bit of a negative tone talking about sustainment. I 
think it is important for me also to tell you on the record 
what I think of it operationally. It is performing brilliantly. 
My fellow air chief, the Israeli air chief, called me and said, 
hey, Dave, he goes, you know, I am not integrating the F-35 
into the Israeli Air Force. I am integrating the Israeli Air 
Force into the F-35. I can't give you a better statement of 
what fifth gen is all about. This one is a game changer. It is 
brilliant in its performance operationally. We have just got to 
work on the sustainment piece.
    Mr. Wilson. And, General, thank you so much for pointing 
that out. And, indeed, to work with our ally Israel and provide 
peace through strength, you are doing that, so thank you.
    And, General Goldfein, South Carolina is pleased to have 
the 20th Fighter Wing at Shaw Air Force Base and the 169th 
Fighter Wing at McEntire Joint Air Base. We know that the Air 
Force has had success in growing its size of the maintenance 
community, although not at the desired 80 percent mark. I am 
thankful the F-16 mission-capable rates are improving.
    What is the plan and timeline to improve the mission 
readiness for F-16s to meet or surpass the 80 percent goal?
    General Goldfein. Well, with the support of this committee, 
sir, and the money that we have had since 2018--we were in a 
downward spiral--we have been able to get upwards of 13 percent 
overall readiness rates and 34 percent improvement in our 
pacing units. The pacing units are those units we have 
identified that will go first into a China or Russia fight, and 
so we have been able to improve now just in that short period 
of time.
    The F-16 is on that track, but I will tell you that we have 
got some significant modifications that we are doing that are 
going to require us to put the F-16s through depot. And that is 
going to lower our overall mission-capable rate, but we 
mitigate that as we get it back out of depot at a higher level 
of capability.
    Mr. Wilson. Thank you very much, General.
    And, General Raymond, again, you are a person of history 
now to be the first person to be the leader of space 
operations. Congratulations.
    One of the major focuses of Space Force is ensuring that 
space systems can be developed and acquired at the speed of 
innovation. What a challenge. What are your perspectives on how 
to fix the system space unique acquisition challenges?
    General Raymond. Thanks for that question. I think it is 
one of the fundamental tenets of the National Defense 
Authorization Act, the reason for the Space Force. I think we 
have to go at speed. Our adversaries are going fast, and we 
need to go faster. I think it begins with requirements. You 
have to streamline requirements. I think it begins with having 
an architecture that everybody agrees to, and that is why when 
the law said that the Space Force will be responsible for the 
architectures of--the national security space architectures, I 
think that is really important, to get everybody rowing in the 
same direction.
    I think software, to go back to Mr. Larsen's question, we 
are already designing how we want to do software in this force 
to be able to go fast, to get--be more software-based rather 
than hardware-based.
    Mr. Wilson. And America is grateful for each of your 
service. Thank you so much for what you do protecting American 
families.
    I yield back.
    The Chairman. Thank you.
    Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chairman.
    Secretary Barrett, what are your thoughts about the right 
mix of fifth-generation and fourth-generation aircraft?
    Secretary Barrett. Well, we are going to do well to have 
the observability that fifth generation allows, but there is a 
good role also for the fourth generation. And we are going to 
continue to see that as a balance and as a correct mix. I would 
invite the Chief of Air Force to add to that.
    General Goldfein. Sir, right now, we are about 20/40. We 
think by about 2030, we will be right in the 50/50. About the 
2040 timeframe, we are projected to be about 60/40. That is 
about the right target, I think, going forward.
    Mr. Gallego. So you would say a good mix, then?
    General Goldfein. A good mix. And I will tell you, at some 
point in the future, we are going to be talking about the same 
thing in a fifth-/sixth-gen mix.
    Mr. Gallego. And, sir, I agree with that. So it is kind of 
concerning what you guys just said. If we need proven capable 
aircraft, why is the Air Force announcing they intend to retire 
44 A-10 Warthogs without giving us more details?
    General Goldfein. The A-10 story, I will tell you that, as 
I said yesterday, and the witness asked, you know, Senator 
McSally and many others have done a great job really saving the 
A-10. So the A-10 is going to fly well to the 2030s. We are 
putting almost a billion dollars into the A-10, updating its 
wings, updating its avionics, updating its radios. There is no 
better platform for close air support, and we are going to keep 
that into the 2030s.
    Mr. Gallego. I get what you are saying, General, so that is 
why I am confused. So why is it--why are we planning to retire 
them if we are putting this much investment in them?
    General Goldfein. Because we are fleet managing, sir, 
across the fleet. KC-135s, KC-10s, Global Hawks, A-10s, right. 
We are talking the oldest airframes that are unaffordable to 
keep flying and then putting that money and that manpower back 
in the existing system and buying new technology.
    Mr. Gallego. But I also just wanted to point out that we 
have been very clear, as in Congress, specifically the House 
Armed Services Committee, through the 2017 NDAA, that there is 
not to be any reduction of the A-10 until there is a study 
between the F-35 and the A-10. And that study is coming out 
when?
    General Goldfein. Sir, that study is complete. I have 
talked to the director of OT&E [Operational Test and 
Evaluation]. It is actually--he is prepared to offer that as an 
interim report, but he is right now planning on delivering that 
in September with the full IOT&E [Initial Operational Test and 
Evaluation] report on the F-35.
    Mr. Gallego. But the 2017 NDAA says that you do not do any 
movement, any decision on the A-10 until you come and deliver 
that report. Right now, you have made a decision without 
delivering us the report, so in my opinion you are in violation 
of the 2017 NDAA. Is that not--what else should I take from 
that?
    General Goldfein. Well, sir, we had this discussion 
yesterday as well with the SASC [Senate Armed Services 
Committee]. You know, when we look through it and look at the 
language, given that we were going to give you the report on 
the first month of the fiscal year, and the timing that was 
laid out in the law, there is actual time within--between the 
end of the FYDP to conclude this. But I will tell you, we 
understand the law, and we will follow it.
    Mr. Gallego. Okay. Now, I understand that there has been a 
change in the plan from the first initiation--or the first 
release of the plan and yesterday when you were talking on the 
Senate side that you guys have a new plan for the A-10. So what 
is the details of this new plan?
    General Goldfein. Sir, the only plan we have right now is 
the one that is in the President's budget. I would be happy to 
get with you offline about this dialogue that we are having.
    Mr. Gallego. Good.
    I do want to say for the record, Mr. Chairman, that this is 
very, very discouraging, though, and also just to my fellow 
witnesses in front, that we are moving in this direction after 
we have been very clear as Congress, as the Armed Services 
Committee. Certainly in a bipartisan manner, I have been in 
support of the A-10 Warthog when I was--when the Obama 
administration tried to get rid of it. I have been here, you 
know, fighting when the Trump administration wants to get rid 
of it, not just because it is based in Arizona, because I do 
think it is a capable fighting platform, and it basically saved 
my ass in Operation Matador in Al Qaim, you know. And as much 
as I love the F-35, I don't want to be using a billion-dollar 
platform to support infantrymen. That is not smart, and it is 
just not a smart use of our money.
    And going into the future, the Air Force may only want to 
fight in the air or in the space domain, but no matter what, 
there will always be infantrymen, and they will also need close 
air combat support. But whatever platforms are out there right 
now, the best one, the cheapest one, the strongest one, 
certainly if something ever happens, especially in Russia--I am 
sorry, with Russia going into--surging into the Eastern 
European theater is still the A-10.
    So I will make sure--I look forward to that report, but I 
think we need to be very, very clear that this Congress, the 
Senate, has said that until we see something that is a better 
replacement for the A-10, that the A-10 is not going anywhere.
    Thank you. I yield back my time.
    General Goldfein. Sir, can I have 1 minute?
    Mr. Gallego. Yes.
    The Chairman. Quickly, sir.
    General Goldfein. Sir, if I could just offer that, number 
one, we are going to put whatever we need to support soldiers, 
sailors, airmen, Marines on the ground, whatever it takes, 
regardless of the cost. You are looking at a guy who was shot 
down in combat, got up the next night, went in and flew, and I 
flew close air support. Let there be no mistake on the 
commitment of the United States Air Force. We fly to the sound 
of the guns, and we support everybody on the ground, or we die 
trying.
    Mr. Gallego. Thank you.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    I am very pleased to see the Air Force here in its new 
structure. It is great for our Nation. I know this is your 
first NDAA, Secretary Barrett. You know I am a big fan of 
yours, and General Raymond knows how I feel.
    But I want, for the record, to thank General Goldfein for 
his many years of service. He is an incredibly respected 
general officer, and he has done an admirable job. And on 
behalf of a thankful Nation, I want to say for the record, I 
appreciate you.
    General Goldfein, the Space Force has begun a significant 
investment in OPIR [Overhead Persistent Infrared] architecture 
to replace SBIRS [Space-Based Infrared System]. Can you tell me 
what that is going to look like and if we are going to be able 
to meet the 2025 timetable?
    General Raymond. I think you meant that for me.
    Mr. Rogers. Did I not say General Raymond?
    General Raymond. Yeah. Okay.
    Mr. Rogers. I am sorry. I might not have.
    General Raymond. This is a critical capability for our 
Nation. It provides the unblinking eye for detecting against 
missiles that are coming into our country. Interestingly, it is 
also the replacement for the system that provided warning to 
our troops in Iraq when Iran launched a missile.
    Mr. Rogers. What I am after is how is it going to look 
different than SBIRS?
    General Raymond. Yeah. So what this program does, it is a 
more--and I can go into much more details in a closed hearing, 
but it is a more defendable capability than SBIRS. And when we 
made that trade a couple years ago to shift from SBIRS 7, 8, to 
next-generation OPIR, it was because of that defendability. It 
includes a geo segment, a polar segment. It includes the ground 
architecture as well. And with the support of this committee, 
the 804 authorities that we had, we are, I think, 18 months--we 
got an 18-month head start on prototyping, and we just 
completed some hardware integration testing that was 4 years 
ahead of its predecessor SBIRS.
    Mr. Rogers. So you are confident we are going to make 2025?
    General Raymond. I am confident we are going to make 2025, 
and we are fully funded with this funding to do that.
    Mr. Rogers. Okay. You recently signed out a fighting SATCOM 
[satellite communications] strategy.
    General Raymond. That is right.
    Mr. Rogers. Tell me what that is.
    General Raymond. Yes, sir, I will be happy to. It is really 
important. Our adversaries are developing capabilities or have 
capabilities that can jam satellite communications. We have to 
be able to fight in a contested domain. When you travel 
overseas and you turn your iPhone on, it links up to whatever 
network that you go to.
    Last year's NDAA provided me the authority to do--procure 
commercial SATCOM, and we think there is a great opportunity 
here working with the commercial industry to bring commercial 
SATCOM and military SATCOM closer together and provide a 
resilient hybrid network that says if a warfighter is on this 
satellite and it gets jammed or loses contact for whatever 
reason, it can automatically switch over to another satellite, 
whether it is commercial or military, and that is the gist of 
that strategy.
    Mr. Rogers. Great.
    General Goldfein, the Air Force recently realigned $4.1 
billion across the FYDP that, according to the Air Force budget 
documents, are being used to invest in four broad categories: 
connect the joint force, dominate space, generate combat power, 
and conduct logistics under attack. Would you please elaborate 
on the specific types of investments being made with this 
budget request and address the priority years--priority areas?
    General Goldfein. Yes, sir. And Chief Raymond can talk to 
the space piece. Let me just focus on the connecting the joint 
force. We are on path to do--every 4 months, we connect 
portions of the joint team that is not currently connected 
through the digital engineering and common data architecture, 
and then we solve problems.
    So we are all going, all the Joint Chiefs, we are all 
headed to Nellis Air Force Base in April. And we have three 
supported commanders that we are going to produce all-domain 
options for them by connecting capabilities. This is going to 
be a live-fly exercise. We are going to have ships off the 
Gulf. We are going to have Marines at Yuma. We are going to 
have Army at White Sands Missile Range. We are going to be 
flying in Nellis, and we are going to do this Joint All-Domain 
Command and Control demonstration to pull this all together in 
a homeland defense scenario. We learn every time we do it.
    A year ago, we were talking about this, and it was mostly 
aspirational lightning bolts on PowerPoint charts. There was 
not a lot behind it. Today, we are not talking about cloud 
architecture. We have one. We contracted it. It is up and 
operating, and all the services are connected to it. We are not 
talking about common data architecture. We actually have it up 
and running.
    So what you are seeing is about $2.5 billion that we put 
forward to connect this joint team. And I will end with, of all 
the things that we are doing, this has the most promise of 
producing a joint team that can win in 2030.
    Mr. Rogers. Thank you.
    General Raymond. If I could pile on----
    Mr. Rogers. Certainly.
    General Raymond [continuing]. To that for a few seconds as 
well. This is absolutely critical for space. We have to operate 
at great distances at speed, and the work that we have been 
doing in what we used to call Enterprise Space Battle 
Management C2 has lashed into that Joint All-Domain C2 and is 
providing a lot of the data architecture that it is using.
    Mr. Rogers. Great. I would just close by pointing out we 
are going to have a new seal on the wall.
    General Raymond. Yes, sir. I will deliver it, and we will 
hang it together.
    Mr. Rogers. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Everybody seems to be concerned about that, 
and there is a balance issue, because we have three on one 
side, three on the other. So we are going to have to figure out 
the logistics of that.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to the witnesses. Again, it was a good 
opportunity to talk the other day, appreciate you coming by.
    I know the issue of the remote visual system has been 
brought up by the other members. I am not going to belabor the 
point. I just want to again emphasize that as we get closer to 
markup in the Seapower and Projection Forces Subcommittee, you 
know, we have to make a decision about building more planes 
that we know are going to have to be fairly significantly 
retrofitted.
    So to the extent that, you know, this comes to a conclusion 
in terms of what that retrofit looks like, frankly, it would, I 
think, just make for commonsense budgeting so that we know, you 
know, what we are paying for. And again, we had a good 
discussion on that, and I hope, again, just to, you know, see 
that dovetail as we get closer to the timeline for decisions 
here.
    The other question I just want to touch on is the Air 
National Guard C-130s. The Connecticut Air Guard actually just 
returned from Afghanistan. They did eye-watering work in terms 
of just the tonnage and personnel that they transported in that 
part of the world. They are doing a good job. But, you know, 
another issue that we have had to kind of wrestle with on the 
subcommittee over the last 3 or 4 years is modernization of the 
C-130s, the propeller issue in particular. The Air Force had to 
ground, obviously, some C-130s back in 2019. The Navy had a 
catastrophe because of defective propellers.
    A lot of us think that, you know, the NP2000 is a solution 
that just will, you know, eliminate, really, the safety issue 
that we know, you know, certainly had that impact with the Navy 
situation. Maybe just talk about that a little bit in terms of, 
you know, another decision that the subcommittee is going to 
have to wrestle with very soon.
    General Goldfein. Well, thanks, sir. And I echo your 
comments on the Guard. We couldn't fight--we couldn't fight 
without the Guard.
    So particularly on the propeller, so we have replaced all 
the pre-1971 C-130H propellers with the NP2000, which I have 
been down to the depot, it is a great propeller. We have 
modified our depot and our maintenance procedures on the post-
1971s to mitigate safety concerns, so we are not looking 
through the safety lens. I will tell you, though, we are in 
ongoing discussions on how, if there is more money, we could 
actually take that new propeller and make it more broad across 
the fleet. So again, thanks to your constituents who produced a 
great product.
    Mr. Courtney. Well, again, we will look forward to 
continuing that conversation.
    And with that, I yield back.
    The Chairman. Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman. Thank you all for 
being here.
    General Goldfein, thank you for your service and your 
engagement with this committee. It has been very helpful, 
particularly for us younger members.
    I was wondering, in 2018, we authorized, via the NDAA then, 
a series of studies on the Air Force's future aircraft 
inventory. One of those was conducted by CSBA [Center for 
Strategic and Budgetary Assessment], and we now have that 
report, a new CSBA report coming out of that requirement that 
found that, quote, the current CAF [combat air forces] 
predominantly consists of aging, non-stealth aircraft that are 
not suitable for operations in contested and highly contested 
threat environments. This force structure is largely the result 
of decisions to cancel or prematurely truncate CAF 
modernization initiatives to develop and procure new weapon 
systems for high-end operations against modern IADS [integrated 
air defense system] such as the F-22 and B-2 programs. In 
addition to program cost, the primary justification for these 
decisions was based on a belief that low-observable aircraft 
would not be needed in significant numbers to support 
contingency operations against regional aggressors like Iraq or 
North Korea. Although reasonable in the immediate aftermath of 
the Cold War, this assumption is no longer valid.
    I know that is a mouthful, but do you agree with that CSBA 
assessment?
    General Goldfein. Sir, I would say that it is my 
recollection, having been--and many in this room perhaps were 
there when the decision was made to cancel and stop the F-22. 
At that time, the decision was made to reflow that money into 
accelerating the F-35. If we had just completed the program of 
record when that decision was made, we would have 1,000 F-35As 
on the ramp today. We didn't get there. So therefore, what we 
have is a fleet that has continued to age out as we have flown 
it downrange, but I would not align with any assessment that 
says that low observability is not critical for the future.
    Mr. Gallagher. Well, what lessons would you then draw or 
suggest to future planners who may be tempted to cut 
modernization?
    General Goldfein. For sure, for the Air Force, I mean, we 
are privy, probably, you know, one of your more technical of 
services. So again, when you look into--and we can bring--I 
would love to sit down with each of you in the classified 
setting. When we bring you what we are investing in in terms of 
modernization and the game-changing technology that we are 
bringing forward, you will see and understand why we are making 
the trades we are with some of the older legacy platforms. An 
Air Force that doesn't modernize doesn't win.
    Mr. Gallagher. What do you say to those--I mean, you look 
at the geography of INDOPACOM [U.S. Indo-Pacific Command], 
which I think we would all agree is now the priority theater, 
if you follow the logic of the National Defense Strategy. The 
geography is challenging. The ranges are long, or there are 
questions about the A2/AD [anti-access/area denial] 
environment. There are questions about access to allied 
airfields as well.
    What do you say to those who would suggest we should, given 
that geography, be emphasizing our B-21 program, for example, 
and seek to grow it and perhaps also correspondingly pull back 
on tactical aircraft procurement?
    General Goldfein. Sir, I jokingly tell my slide builders 
that if I see one more slide with a big red dome over China, I 
am going to execute choke con on the slide builder. China can't 
put a block of wood red dome over itself. It can put a block of 
Swiss cheese. And my job is to know where the hole is in and 
get in and hold targets at risk at the time and place of the 
Commander in Chief's choosing, and one of the weapons system 
that does that is the B-21.
    Mr. Gallagher. Point being that, you know, A2/AD poses 
challenges, but it is not an impenetrable wall.
    General Goldfein. Never.
    Mr. Gallagher. The Air Force has committed to standoff 
hypersonic weapons, but what are our plans for stand-in 
hypersonic weapons associated with the F-35A?
    General Goldfein. So you may know that we down-selected 
from two hypersonic programs to one.
    Mr. Gallagher. This was ARRW [Air-launched Rapid Response 
Weapon] and----
    General Goldfein. HCSW [Hypersonic Conventional Strike 
Weapon].
    Mr. Gallagher. HCSW, yeah.
    General Goldfein. And we did that based on the fact of a 
combination of funding. We had gotten a lot of benefit out of 
the competition while it went on. The more flexible of the two 
was the ARRW program, so now we are pushing for the full 
funding. But I will tell you that the service secretaries 
signed an agreement to ensure that we take the best of each 
service when it comes to hypersonic technology, under the 
leadership, quite frankly, of Dr. Mike Griffin, who is really 
steeped in this technologically, to make sure that the Army, 
the Navy, the Air Force, the Marine Corps, that we are all 
bringing our best technology in our labs forward and making 
this complementary as we go forward.
    Mr. Gallagher. Appreciate that. I am running out of time 
so, General Raymond, all of my detailed questions about the 
future of Space Force uniforms will have to wait until the next 
hearing.
    General Raymond. I will be happy to come by and see you 
too.
    Mr. Gallagher. Appreciate that very much.
    I yield.
    The Chairman. Mr. Brown.
    Mr. Brown. Thank you. And thank you, Madam Secretary and 
Generals, for being here.
    General Goldfein, I want to thank you for your service. Had 
the privilege of receiving testimony from you in this hearing, 
being in the presence of your presence at a variety of forums. 
And you are not only a fantastic leader but a real thought 
leader, and I hope that as you take off your uniform, you don't 
venture too far from the national security conversation that is 
happening in this country.
    I am also very excited that your successor, who has been 
nominated by the President, I am confident will be confirmed by 
the Senate, General Charles Brown, the first African-American 
Chief of Staff not only for the Air Force but of any service 
component. So I am looking forward to working with him as we 
ensure that the United States has the air power necessary to 
counter our adversaries.
    I wanted to talk about the shortfall in the number of 
pilots that impacts readiness but take a more narrow approach. 
In your joint statement, you say that the first resilient and 
ready airmen and space professionals are the bedrock of the 
Department's readiness and lethality. You have got a pilot 
shortfall, and you have got a problem. You are lacking 
diversity and inclusion among your aviators.
    In April 3 of 1939, this Congress created and funded the 
program that today we know as the Tuskegee Airmen. There were a 
thousand pilots in that program. Granted, the core of pilots 
was much larger as we were gearing up for World War II, but it 
represented .5 percent, a small percentage of the pilots. 
Today, there are only 47 African Americans who fly fixed wing 
in the Air Force. That is 1.5 percent. And I don't have the 
numbers for women, but it is as disturbingly low.
    I know that you are doing a number of things to address 
that, but the question is, what can we do 81 years later as a 
Congress to enable you to achieve the diversity, not just for 
the sake of the diversity, but to enable you and our Nation to 
meet the readiness needs and the challenges that are faced by a 
shortfall in the pilots that we have in uniform? Can you please 
address that for me?
    Secretary Barrett. Well, as a pilot and someone who worked 
ardently to get the 1948 law that prohibited women from flying 
fighters, to get that law changed in 1992 and the policies 
changed in 1993, it is a topic that matters a great deal to me. 
And as the Secretary who recommended C.Q. Brown's appointment, 
I feel strongly that we need to occupy the talent in whatever 
package that talent is presented.
    I have been a friend of a number of Tuskegee Airmen over 
the decades and decades and was there when the President pinned 
on the General star on now General McGee, a Tuskegee Airman, 
who celebrated his 100th birthday not so long ago.
    The first thing we have to do is recognize there is a 
problem, and the quantification of that problem is what the 
RAND report recently identified for us. And then I think one of 
the things that will help us is the recent attention brought to 
military service when the Space Force was stood up. There is a 
new excitement about being a part of the military service. 
People want to be a part of the Air Force and Space Force as a 
result of that. I would invite my colleagues both to speak to 
it as well, or I welcome meeting with you further to discuss 
it.
    Mr. Brown. I will take that for the record. Because let me 
just point out that this is what the report found, and we 
cannot be afraid of this. We have to take it head on. It says 
that minorities and women--the report found that barriers to 
minorities and women included racist and sexist comments from 
simulation instructors, race and gender stereotyping, and a 
contending with the prevalent culture. This was based on focus 
groups from not only students but instructors and leaders. We 
have got a cultural problem in the Air Force, and I expressed 
this last week in the Navy. So I just implore you to take this 
on and ask Congress for your help.
    [The information referred to can be found in the Appendix 
on page 83.]
    Mr. Brown. And in the last 20 seconds I have, let me make a 
pitch for this. I visited Dover Air Force Base. They are right 
next door to Delaware State University, an historically Black 
college and university. They have an aviation program there. 
Their ROTC [Reserve Officers' Training Corps] affiliation, 
unfortunately, is an hour drive away from Delaware State. Let's 
find flexibility to establish an ROTC unit right there at 
Delaware State University so they can team up with Dover and 
help address this need.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman.
    I want to thank the Secretary of the Air Force. You are 
doing a great job stepping in. We applaud what you are doing.
    Congratulations to General Raymond. You have come a long 
way since you and I inspected Hurlburt and Nellis Air Force 
Base as colonels, but congratulations.
    General Raymond. You have come a long way, too.
    Mr. Bacon. Thank you.
    And, General Goldfein, congratulations on a great job. I 
personally believe you will always be known as one of the 
greats in our Air Force, and I just want to applaud the great 
work you have done.
    And, Secretary, I wanted to get your assessment. Do we have 
an appropriate budget that can field the B-21 and the GBSD 
[Ground-Based Strategic Deterrent] on time? Are we on track to 
do that?
    Secretary Barrett. We have budget to do that. We have to be 
ever vigilant to make sure that it continues and that we keep 
those productions going.
    Mr. Bacon. Thank you. I think fueling a triad and 
recapitalizing all three parts of that is priority number one. 
It would be my first top priority and I hope out of this 
committee.
    Do we have a better name for GBSD? I mean, we have got to 
work on something. I have to practice this to get that acronym 
right.
    Secretary Barrett. We are in, I think, total agreement. It 
fails on the moniker test, but the mission is the right 
mission.
    Mr. Bacon. Okay. Thank you.
    And both to our Chiefs here, you know, 3 years ago when I 
came in, our readiness level was--I think it was at emergency. 
I will just give you one example. In the Army, we have 58 
combat brigades. Only three could deploy or fight tonight.
    Could you both give me some evidence with 3 years of good 
budgets that we have turned this readiness level, at least 
point it the right way and making progress? General Goldfein.
    General Goldfein. Sir, I will just tell you that when we 
started the down--when we came out of the downward spiral in 
2018 and really just stopped the bleeding, since that time, 
with your help, we have had a 13 percent increase in readiness 
and mission-capable rates overall and about 34 percent increase 
in our pacing units, which are those that we identify to go 
into the first opening days of a China-Russia campaign.
    Probably is one of the more exciting parts is we are 
getting back in the air again. We are back to the 19 to 20 
hours, 21 hours per month that perhaps you and I grew up with 
that we were unable to get to, even close. You know, pilots 
came into the Air Force to fly. Maintainers came in to 
maintain. Air traffic controllers came to control. If they 
don't think that we are serious about readiness, they are going 
to vote with their feet. You want to find the highest morale in 
the United States Air Force? You go find the highest levels of 
readiness.
    Mr. Bacon. Totally agree.
    General Raymond.
    General Raymond. I would just add, in the space community, 
our readiness levels are always relatively high, but we are 
measuring it off of a benign domain without a threat. And so 
where we have really focused our efforts is to train our 
operators to operate in a contested environment, procure the 
training infrastructure required to be able to do that, redo 
all of the metrics, if you will, that we grade ourself off of 
to add that contested nature, and so we can be prepared to 
provide the space capabilities our Nation needs.
    Mr. Bacon. Thank you. And one last question. I want to go 
to the electronic warfare. We are almost 30 years in that 
field, and I think we would agree, in the nineties, we sort of 
walked away from that. The electronic magnetic spectrum is a 
physical, finite domain, and the other side wants to deny that 
for our radios, talking to our satellites, using our radars. I 
think we fell behind.
    And I heard a great briefing last Friday from the Joint 
Staff. I have also heard it from our Air Force one-star. I 
think we are making great strides, but I want to get your 
sense, General Goldfein. If we turn the corner, are we doing 
the right things? What else can we do to help?
    General Goldfein. Sir, that muscle atrophied in 19 years of 
fighting in this specific kind of campaign. So here is three 
things that we are doing to get that muscle, to get back in the 
gym. First was to suit up the 16th Air Force, the first 
numbered Air Force focused on information warfare, the 
combination of cyber, ISR, electronic warfare, and information 
operations under one of our most brilliant operational 
commanders who just came out of Cyber Command to lead that.
    Second, we combined our A2 and our A6, traditionally 
intelligence and communications/cyber, into an A2/6, aligned 
our phone book with the Navy that has an N2/6, and now we are 
focused on intelligence and cyber operations. In the 2021 
budget, you will see that we are setting up a spectrum warfare 
wing, the first one of its kind, that will focus on nothing but 
electronic warfare. So we are back in the gym.
    General Raymond. On the space side, in my U.S. Space 
Command hat, I am responsible for protecting and defending 
space. That requires protecting and defending that spectrum as 
well. We just stood up on the Space Force side a space 
electronic warfare group as well.
    Mr. Bacon. That is fantastic.
    What I heard last Friday and I have also heard from General 
Gaedecke of [inaudible], if I'm saying his name right, we are 
finally at the spot where I think I am starting to feel 
comfortable that we are doing the right stuff, so I appreciate 
the hard work. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Ms. Sherrill.
    Ms. Sherrill. Thank you.
    Thank you, General Goldfein, for your service. Your 
reputation precedes you. And thank you, Secretary Barrett and 
General Raymond, for joining us today.
    General Raymond, I have heard a lot about the Space Force 
uniforms as well. You look remarkably like an Air Force 
officer, so we will see. It must be my untrained eye.
    General Raymond. We are working it. I will come back and 
model.
    Ms. Sherrill. We are looking forward to it.
    So over the past week and a half, this committee has heard 
from the Secretary of Defense and the Chairman of the Joint 
Chiefs of Staff, as well as service leadership, and at every 
hearing, including this one, members have expressed our concern 
about this administration and this Department's willingness to 
subvert the judgment of Congress in favor of their own judgment 
through reprogramming action. I am personally deeply concerned 
that the way this Department of Defense is using its 
reprogramming authority damages the trust between this 
committee and our DOD. And so in the Air Force example, what I 
am concerned about particularly is the F-35 program.
    General Goldfein, you testified just last year that the Air 
Force needs to procure 60 aircraft per year to modernize the 
tactical fleet, meet the optimal production rates, and mitigate 
possible gaps. Do you still feel that way, sir?
    General Goldfein. Yes, ma'am, but I would say that in terms 
of total fighter force, we need 72 a year, and I am on record 
for that.
    Ms. Sherrill. So despite believing you need 72 a year, you 
requested funding for 48 F-35s. Is that correct?
    General Goldfein. Yes, ma'am. Flat budget, less buying 
power. That is the result.
    Ms. Sherrill. But you would not say that the 12 unfunded F-
35s were simply an excess of your current programmatic need or 
simply a congressional special interest item?
    General Goldfein. No, ma'am. What was taken for the wall on 
the F-35 was what we call advance long lead procurement items. 
What we do is to reduce the amount of time to bring the 
aircraft, there is certain items that we buy the year prior so 
that those parts are actually on the line when the airplane 
starts coming through. What they diverted was those long lead 
items. So it actually doesn't have an impact on the total 
number of aircraft we buy; it has an impact on the lead items 
for the next year.
    Ms. Sherrill. So what we do here in Congress is we look 
ahead to what we think our future modernization needs are, and 
we fund them at appropriate levels to meet the needs of our 
service fleet. So you said earlier that, quote, you know, when 
looking at the ALIS problems, why should we buy? We in Congress 
might say why should we buy you F-35s if you haven't fixed 
those problems? A broader question is why should we buy you F-
35s when you are reprogramming the money we have already sent 
you for F-35s?
    General Goldfein. You know, ma'am, that is a good question. 
You know, the Joint Chiefs were asked, the Chairman 
specifically, about how to--you know, the question we were 
asked was does the reprogramming have an immediate strategic 
impact on our ability to defend the Nation. And so the answer 
that the Chairman gave was back was, you know, for the amount 
of money that was reprogrammed, no, it doesn't. It does have an 
impact. Absolutely.
    Ms. Sherrill. And I think as we look towards the new 
National Defense Strategy at the challenges that we are all 
going to face in the future, at the challenges of modernizing 
our fleet, we are balancing very strategically here in Congress 
the current needs of our DOD and any future needs as we see 
them. And it is very difficult for us to have any confidence 
that when we make those choices and we fund certain programs, 
that now our DOD is going to put that money toward the programs 
we have, in fact, directed them towards.
    Thank you. I yield back.
    The Chairman. Thank you.
    Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    Last week, I asked Secretary Esper about the Space Force's 
opportunity to improve traditional Federal acquisition 
regulations. In response to my question, Secretary Esper stated 
that, quote, our biggest challenge is culture. We have to 
change our culture so it is less risk averse and more willing 
to take bets on the small guys, end quote.
    General Raymond, what are your perspectives on how to 
develop a culture within the Space Force that is willing to 
accept risk on startups and the small guys, as the Secretary 
referred to them?
    General Raymond. So we are a startup company ourselves, and 
so we want to build this in a way that capitalizes on that. We 
have done a lot of work here over the past couple years with 
the Space and Missile Systems Center out in Los Angeles to 
expand the number of nontraditional companies that are in 
this--in our business.
    We have developed open standards so nontraditional 
companies can innovate to those standards. We have stood up a 
Space Rapid Capabilities Office modeled after the Air Force 
Rapid Capabilities Office to not have to fight the bureaucracy, 
to have direct access to the two chiefs sitting at this table 
and under the leadership of our Secretary.
    And I think the other thing is we have delegated authority 
for programs down to a lower level. It used to all be held up 
at a three-star level. And if you are risk averse, if you grew 
up risk averse, and all of a sudden you are unleashed, it takes 
a while to feel unleashed and feel empowered. And we have been 
working that for the last couple of years.
    Mr. Banks. Appreciate that.
    Secretary Barrett, last month, I and other members of the 
Future of Defense Task Force visited the Air Force Artificial 
Intelligence Accelerator at MIT [Massachusetts Institute of 
Technology], as well as Kessel Run in Boston. These 
organizations, along with AFWERX, have been aggressive at 
engaging across the national security innovation base, outside 
of traditional defense contractors, and bringing commercial and 
academic best practices and new ideas into the defense 
ecosystem.
    I wonder, are you seeing the efforts of AFWERX and similar 
organizations disrupt the acquisition and requirements 
workforce, and what more can we do to sustain and scale those 
efforts?
    Secretary Barrett. Thanks for your support of those. It has 
really been transformational. Already just last week, we were 
judges on a Spark where, internal to the Air Force, people came 
forward with ideas, with inventions they had, or better ways of 
doing things, creative solutions to concerns.
    So there is the pitch day that is bringing new small 
companies forward. And instead of the laborious process that 
they associate with the defense contracting, they were able to 
make their pitch, and if persuasive, leave that day with a 
contract with the Defense Department. It is really disruptive 
to the way it has been done. It creates a great enthusiasm by 
small companies on the pitch day ideas and internal creativity 
and innovation on the part of airmen and space professionals by 
having things like the Spark tank.
    Mr. Banks. Can Congress do more to support those efforts? 
What more can we do?
    Secretary Barrett. The authorities that you have granted 
are very helpful, and we will be looking in space to come 
forward with ideas that might shed more red tape that we find 
encumbers----
    General Raymond. I think one of the challenges--we actually 
canceled a C2 program for space that wasn't going to deliver 
what we needed and went to an agile development way of doing 
business. I think one of our challenges is we need to make sure 
as we do this and we spiral that we give Congress the 
appropriate oversight, that balancing, the going fast with 
making sure that you have what you need to make sure that we 
are doing well.
    Mr. Banks. Appreciate that.
    Mr. Chairman, I yield the remainder of my time to General 
Bacon.
    Mr. Bacon. Thank you, Mr. Banks.
    One followup on the electronic warfare question. The 
Compass Call program. We budgeted 10 replacements for the 
Gulfstream. Six are paid for. I understand the Gulfstream 
production line is stopping. What is our plan to close out the 
last four? Thank you, General Goldfein.
    General Goldfein. Thanks, sir. We made a decision in the 
business case that said there is some mix of used aircraft and 
new aircraft. What is the plan? So we are going to have--I 
think that the plan is like six and four in terms of new versus 
used. So the shutdown of the line doesn't affect us. We will be 
able to get our aircraft we need.
    Mr. Bacon. Thank you.
    I yield back.
    Mr. Kim [presiding]. Great. Thank you. The gentleman yields 
back.
    I am going to be taking the helm here as I am next up on 
the line. So I wanted to just start by echoing my colleagues, 
General Goldfein, just of your incredible service. It has been 
great getting to work with you on this.
    And, Secretary Barrett and General Raymond, it has been 
great getting to know you and work alongside both of you.
    Secretary Barrett, I wanted to turn to you and just take a 
step back here. As you know, in my district, we talked about we 
have got Joint Base McGuire-Dix-Lakehurst, and a big part of 
the work that I have been trying to do is just really tried to 
harmonize the work between the joint base as well as the 
surrounding communities. Certainly, a big part of that has been 
about the community doing everything we can in New Jersey to 
support the joint base, as it is our second largest employer in 
the entire State of New Jersey, but another aspect of it is 
something about how it is that we can continue to make the 
joint base an engine for our economy in the area and continue 
to support our local businesses, our local efforts there.
    So I wanted to just start off with sort of a broad question 
here. I would assume you would join me in thinking that it is 
critically important that our Air Force and our DOD understand 
that the military installations need to be a vibrant part of 
our community. Is that right?
    Secretary Barrett. It is very important to us in our 
communities that we be good neighbors and we be well integrated 
into the communities.
    Mr. Kim. It definitely seems like a relationship that we 
would always want to continue to be mutually beneficial on that 
level. One aspect that I have been looking at is in terms of 
military construction and military construction spending. Now, 
if I get these numbers right, you can tell me if I am in the 
right ballpark, but it looks like we are at about $2 billion in 
fiscal year 2018 for DOD as a whole and roughly about $265 
million for fiscal year 2018 for the Air Force. Does that sound 
in the ballpark?
    Secretary Barrett. It sounds in the ballpark.
    Mr. Kim. Ish? Yeah.
    Secretary Barrett. The ballpark sounds right.
    Mr. Kim. Well, you know, for me, as I have been digging 
through those numbers, I have been trying to get a sense of 
what kind of impact does the military construction resources 
and funding provide to businesses in New Jersey and local 
businesses, as we have a lot of great workers there who are 
trying to help set up the new hangars for the KC-46 and other 
things like that, but I really struggle to get further details 
about that type of impact. So, you know, I would like to work 
with you on this and try to figure out, you know, how do we do 
a better job of tracking what kind of investments are being 
made, especially when it comes to MILCON [military 
construction], into these local businesses? But I just wanted 
to get a sense. Does that sound like a reasonable thing that we 
can try to move on together here?
    Secretary Barrett. I would be happy to work with you to try 
to track that.
    Mr. Kim. Yeah. Because I think, for me, you know, we 
certainly want to make sure that we have, you know, the best 
installations, the best construction for our military. And I 
think that when I get to know the local workers in our area, it 
certainly feels like, you know, that is a place where it can be 
a win-win here, that our local workers who are highly skilled, 
a lot of them go through apprenticeships and other programs. 
But I will be very honest with you, as I have talked with a 
number of businesses and workers in our area, they have 
struggled to kind of get their foot in the door, whether it is 
working for the joint base or other installations.
    And I am just trying to figure out how we clarify this, you 
know. Some of it comes from helping them understand what the 
contracting process is, and I think we can try to find some 
steps to add greater transparency on that level. But I also 
think that there needs to be just sort of a reassertion of the 
importance that we are dealing with from this committee and 
from the DOD side on just what role we expect to play within 
our local communities.
    And so I think from my end, I would love to work with you 
on trying to get deeper fidelity and what numbers we 
understand, because otherwise, we have trouble quantifying or 
articulating exactly what kind of investment we are doing. And 
I am hoping that we can work together as well to just make sure 
we reassert that importance of the local workers when it comes 
to our cooperation with the base. Does that sound right?
    Secretary Barrett. Congressman Kim, we would be happy to 
work with you on that and to do an assessment, track it, and 
determine if there are better ways we can be participants in 
the community.
    Mr. Kim. Okay. Great. Well, look, I look forward to doing 
that with you all.
    And I will yield the rest of my time here.
    So next up, we are going to turn it over to Mr. Mitchell. 
You are now recognized for 5 minutes.
    Mr. Mitchell. Thank you, Mr. Chair. Thank you all for being 
here today.
    First, let me start, as some of my colleagues have 
referenced, in particular Kessel Run with the Future of Defense 
Task Force. We got to visit there. I spent 35 years in private 
business, running a business much smaller than the Pentagon, 
trust me, starting new divisions. And I was incredibly 
impressed with their ability to solve problems quickly. The 
enthusiasm level, the motivation level of both the civilians 
and the personnel, the Active Duty personnel there was 
extraordinary. I wish I could have spent more time. I would 
have spent days there on what they are working on because it 
really was impressive. And I want to urge that--I know there 
are some questions about funding and all of that. We want to 
make sure we keep that type of operation going. It could have 
an impact on the problem we talked about with the F-35 with 
ALIS, a variety of things that they will tackle in entirely 
different ways outside the box. And we are getting deliverables 
for the Air Force and for the military.
    I also would like to switch gears a little bit. I went on a 
CODEL [congressional delegation]. We went to Iwakuni was one of 
our stops. F-35, talked to maintainers there about ALIS. We 
won't get into that. They had things to say, I am sure you can 
understand that. But the other concern that was raised was one 
about the ability to train in range. Because of their location, 
they are having to come back to the States or other places for 
training on the F-35s, which heightens my concerns about the 
issues of community oppositions where we bed down. We are 
talking about bedding down F-35s now in terms of Ops 5 and 6.
    You are smiling, Secretary, yes. Without getting into what 
community, there is a significant backlash in the community 
that is scheduled to receive those. Literally hundreds--a 
couple hundred people last week showed up to protest that. The 
Member of Congress in that district, I believe, would chain 
himself to the gates to avoid having those F-35s put there.
    We can invest a huge amount of money into an airplane that 
is obviously--I was out at Nellis and saw the operation of that 
Red Flag last year. It is extraordinary, but only if we get 
proficiency of the pilots, only if we keep them trained. So my 
question for you is, you talked about in the Senate, and I know 
Senator Peters raised the question about we are looking at 
community interests. Can you be a little more specific about 
that? Because I don't want to put aircraft, I don't care where 
it is. Yes, Selfridge Air National Guard Base I believe is a 
great place to put them, but we cannot put them in a place that 
will have issues of night flights being a concern, training 
flights, noise. There are other communities in the country 
that, you know, believe jet sounds are the sounds of freedom. 
How are you going to take that into consideration so you don't 
end up with an expense or an investment that is not best?
    Secretary Barrett. One of the most important things for 
training pilots is range access, and there is great range 
access over the lake, so it is really an important topic. There 
is a process that we have gone through, and so that is through 
measured criteria that have been preannounced and evaluated.
    Mr. Mitchell. Let me ask you about that.
    Secretary Barrett. Community welcome is one of the 
important----
    Mr. Mitchell. Let me ask you about that, because I think 
range access is critically important. But, however, it appears 
to me that you assess range access on a pretty general basis. 
And I say that because Selfridge has access directly to the 
largest range, both live-fire ranges and terrain, east of the 
Mississippi. I don't understand how we rate that even with 
other locations that have smaller ranges, less geographic 
diversity, less terrain diversity, and less ability for live 
fire. And if we are going, again in my opinion, to make the 
best investment on F-35s on this high-tech gen 5 aircraft, 
let's make the best environment for the training. So how are we 
going to put that into the equation so we actually assess that, 
in my opinion?
    Secretary Barrett. May I invite the chiefs?
    Mr. Mitchell. Absolutely. Thank you.
    General Goldfein. Sir, first, let me just say thanks for 
bringing up Kessel Run and the work that they are doing.
    Mr. Mitchell. Great work.
    General Goldfein. You know, while General Raymond is 
working on his uniform, I am trying to figure out how to bring 
hoodies into the United States Air Force so we can bring in 
some of the most incredible software coders on the planet.
    Mr. Mitchell. They are extraordinary. They are a lot of 
fun. I enjoyed those folks.
    General Goldfein. Let me tell you, though, that when it 
comes to the F-35 sustainment and the ALIS program, the 
software, here is why I am more confident today than I would 
have been testifying a year ago. Our folks are working now 
closely with the contractor and the subcontractors, and we are 
having one of the most mature, informed discussions we have had 
in this program about data, because data is the currency of 
future warfare. And if we don't have access to it, then we are 
going to get lapped by the adversary. The fact that we are 
having a mature discussion with Kessel Run involved and folks 
who understand this business with the company that manufactures 
this airplane gives me my greatest optimism I have had in 
years.
    Mr. Mitchell. We are going to run out of time here, and I 
am not going to try to abuse the acting chair who might be less 
aggressive than Mr. Smith, but let me just remind you, you have 
heard today, Secretary and General, that there are other 
communities in this country that will embrace our military 
capabilities, the F-35, and provide and ensure that training 
opportunities are available, and they are not limited. And we, 
I think you have got the sense, will be looking at that very 
carefully in terms of what decisions are being made on that and 
how they are being made, because it is an extraordinary 
investment in the gen 5 aircraft at the future of the Air 
Force. So please understand that that oversight is going to 
continue.
    Thank you.
    General Raymond. I know we are over time. Could I have like 
10 seconds? I just want to pile on----
    Mr. Kim. I have to step in here if----
    General Raymond. I just want to pile on to Kobayashi--or 
Kessel Run, and we have one in the Space Force called Kobayashi 
Maru. And I will tell you, we just went to them and said to 
both, the leaders of both, and said design a software 
capability for the Space Force, and we are going to implement 
that going forward as well.
    Mr. Mitchell. Great. Thank you.
    Mr. Kim. Thank you. I don't want my colleagues to think I 
am going to go soft on them up here.
    I am going to turn it over to my colleague, Mrs. Luria, for 
5 minutes. Over to you.
    Mrs. Luria. Thank you, Madam Secretary, thank you, 
Generals, for being here to talk about the Air Force budget 
today. And I wanted to single in on a comment that stood out in 
General Goldfein's opening remarks.
    General, you said, I am a hundred percent confident we have 
what it takes to win. But when I go back to 2018, the Air Force 
proposed to grow its end strength to 386 operational squadrons, 
and in the budget request that we are looking at today doesn't 
get us there. And so what I am really trying to get at is 
understanding, obviously, that there are limited resources, 
but, you know, saying that we have what it takes to win doesn't 
display a sense of urgency that we really need to get to 386 
squadrons in order to win. And so from our perspective, when we 
have to make complicated choices with limited resources, what 
are we supposed to take away from that message?
    General Goldfein. Ma'am, that is a great question. I think 
it is important for the American people to hear a Joint Chief 
have the confidence that we can protect this Nation if called 
upon. And so make no mistake; it will be a long and bloody 
fight. We will lose a lot of airmen, but we have what we need 
to win.
    Now, the 386 operational squadrons was a discussion that we 
began with Congress, which was a conversation that, quite 
frankly, we had not been having. The first time you saw us was 
when we came over here to tell you the Air Force we could 
afford. We actually never put on the table for you the Air 
Force we need to win. And so 386 operational squadrons is not a 
gold-plated answer.
    When I went to war as a young captain, and we kicked a non-
nuclear middleweight power out of Kuwait, we had 412 
operational squadrons. We are saying we need 386 to defeat a 
nuclear peer. It is not gold plated. The fact that we didn't 
actually advance towards 386 is the reality of a flat budget 
with 2 percent less spending power.
    Mrs. Luria. So another comment that was made, and I 
appreciate that, and I understand as the chief of the service, 
we have confidence in our forces to execute the mission as 
necessary and take on all adversaries, including near-peer 
adversaries. But, you know, when we are looking at the budget, 
we want to give you the tools that you need to win, so that is 
kind of the discussion that we are having here and certainly 
believe with full confidence in our forces' ability to fight 
with the tools that they currently have, but we want to know 
what they need for the future.
    And General Raymond, you mentioned in your remarks that to 
establish Space Force is the number one priority of the U.S. 
Air Force. Just taking a step back, because the Air Force has a 
huge part in this, you know, I strongly believe that 
modernizing the nuclear deterrent is incredibly important and 
that a strong nuclear deterrent is the cornerstone of our 
national defense. So, again, somewhat competing priorities if 
we are to sit here and make decisions between things that have 
very large price tags but are also very fundamental to our 
national defense. Can you speak briefly on that?
    General Raymond. Yes. So, clearly, the nuclear mission is 
the top mission in the United States Air Force. I mean, we have 
to absolutely do that right. We are just starting the Space 
Force. And so a near-term priority is to get that Space Force 
right, because I will tell you, it is equally critical to our 
security and the security of our allies. We have had the 
luxury, the absolute luxury over the last couple of decades of 
operating in a very peaceful, benign domain, and I would 
welcome the opportunity to come talk to you in a closed session 
about the threats that we are seeing.
    Mrs. Luria. I would enjoy that opportunity, and I also see 
a great opportunity for developing a service from scratch.
    General Raymond. We do.
    Mrs. Luria. As someone who served in the Navy for 20 years 
myself, when I look back, as soon as we started integrating 
women, we were trying to fit a different model into something 
that had preexisted. But I think it is huge opportunity, as 
Representative Brown said, for women, increasing diversity, and 
all of those things to start from scratch with a vision 
statement and recruiting that supports a new force with a blank 
slate.
    General Raymond. Wholeheartedly agree.
    Mrs. Luria. And I would love to have that conversation.
    And switching to the next topic very quickly, climate 
change, sea level rise, recurrent flooding. In Hampton Roads, 
we have eight major military installations. One of those is 
Langley Air Force Base. And your budget justification for the 
project that was listed there for the access control point--
because if people can't get on the base, they can't get to 
work, they can't do their jobs--basically said that, in 
justifying the land acquisition portion of that, that Langley 
is not within the 100-year flood plain. However, it was one of 
the 18 installations listed in the 2016 DOD report that were 
the most at risk due to flooding and other environmental issues 
and sea level rise.
    So I would also love to hear more specifically about the 
justification for that and what we can do to make sure that our 
airmen can get on Langley, and also with NASA [National 
Aeronautics and Space Administration] Langley facility enjoying 
the same access route, and they are critical to the work that 
we are doing on hypersonics as well.
    Secretary Barrett. The United States Air Force learned a 
great deal after Offutt Air Force Base and Tyndall were damaged 
in the past several years, and we have Congress to thank for 
funding the repair. As we rebuild, we are building to new 
parameters, to new guidance, and to new management, new 
construction models which incorporate flooding and wind damage 
as elements, revised elements, to build those standards. So we 
are, in fact, taking it very seriously that we need to make 
sure that our folks can get to work each day.
    Mrs. Luria. Thank you. We have run out of time.
    Mr. Kim. Thank you.
    I am going to turn it over to Mr. Wittman now for 5 
minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    General Goldfein, Secretary Barrett, General Raymond, 
thanks again for joining us. General Goldfein, thank you so 
much for your extraordinary leadership and service there with 
the Air Force. We thank you for all that you have done. We look 
forward to working with General Brown. I know that he will have 
big, big shoes to fill.
    I want to applaud you for all you are doing to prioritize 
modernization within the Air Force. We know the big delta that 
you have been given with this and where we are today and where 
we need to be. And we know that during times in our military, 
there are these points where we have to go through pretty big 
efforts to be able to modernize. I know all the things that the 
Air Force does. In this time of great power competition, the 
challenges we face are multifold and in many different areas.
    All the things the Air Force has done in research and 
development in places like hypersonics, directed energy, 
autonomy, cyber, propulsion, mass weapon payload systems, and 
advanced space dominance in the future, are all extraordinarily 
important. And you talk about multi-domain operations, taking 
all those things and integrating them together. And technology 
is fantastic. And we are the best innovators and creators in 
the world, but in and of itself is not the panacea.
    So the question is, is as we are looking at all those 
things, how do we take all that great technology and integrate 
it into modernization within the Air Force, integrate it into 
modernization of the Space Force, and then how do we integrate 
that into the joint force? All those different elements are a 
lot of different moving pieces. I think that is going to be the 
real secret sauce. It has been the secret sauce about how we 
have operated previously. That is what our adversaries don't 
quite get to, and it is where we are going to maintain our 
strategic and tactical advantage in the future.
    Give me some of your thoughts about how these technologies 
are developed quickly. And the Air Force RCO [Rapid 
Capabilities Office] does a great job in really getting 
technology, getting it to the forefront, getting it out there. 
But how do we make sure that we are doing the right thing in 
testing and integrating all this different technology in the 
systems that have significance today, tomorrow, next month, 
next year, and next decade?
    General Goldfein. Thanks, sir. It is a great question. You 
know, industry is ahead of us on this. They have learned that 
if you want to do artificial intelligence, hypersonics, 
quantum, some of these, you know, game changers, you actually 
can't skip the steps of common digital architecture and data 
architecture. So the Department of Defense, we can't skip the 
step. We have got to do it.
    Here is what gives me confidence that we are doing this the 
right way. Number one, Chairman Milley's guidance to me when he 
designated the Air Force as the service lead to work this for 
was crystal clear. We are not bringing forward a single service 
solution. We are bringing forward a joint solution, and the 
Army, the Navy, the Marine Corps, the Coast Guard, the 
investments they have made in their own C2 has got to fit into 
anything we bring forward. That is number one.
    Number two. The Joint Chiefs, I will tell you now, you 
know, coming up on my fourth year, it is an interesting 
relationship that we have now because we have all grown up 
fighting together. I mean, you know, Jim McConville was the 
chief--was the commander at Bagram when I was the air component 
commander. We fought together. So there is a level of trust 
between the Joint Chiefs that I would offer that this is the 
way that this committee ought to expect us to operate as Joint 
Chiefs, sitting here especially with my fellow Joint Chief.
    And the last thing I will tell you is that trust as we 
build this out means that I make sure that the investment that 
the services have made in their C2 fits into any architecture 
that we do. We are all going out to Nellis Air Force Base next 
month for a demonstration, and we are on a 4-month cycle where 
we are connecting capabilities, and we are solving problems, 
and we are doing this the way that industry--and I will finish 
with saying that we have brought on 12 pioneers that have done 
this successfully in industry. One of the designers of the Uber 
app actually now is on the Air Force payroll.
    Mr. Wittman. I appreciate all those efforts, and I think 
those things are incredibly important as you transition through 
this modernization. One of the elements of modernization, and 
you point to, with multi-domain operations, is transitioning 
from legacy systems, retiring legacy systems. The systems that 
we needed yesterday, last month, aren't what we are going to 
need next month, next year, as I said, next decade.
    But give me your perspective; because it is not just 
retiring legacy systems, but it is making sure the transition 
is proper. So if we are retiring a legacy system, how do we 
make sure that we have in place, operationally proficient, the 
replacement system for that? Because I think that is what 
concerns all of us, is not necessarily getting rid of those 
systems, but making sure we have the proper ones fully 
operationally in place before those other ones are taken out.
    General Goldfein. Secretary Mattis used to have a 
framework. He would force us--if any of us said what he called 
the ``R'' word, the risk word, we had to answer three 
questions: To who, for how long, what is your mitigation. This 
is real risk to the combatant commanders. And I don't want to 
understate that, to General Lyons, for me to retire tankers is 
real risk. For General McKenzie, for me to retire ISR is real 
risk.
    How you mitigate is by connecting this force so that you 
make use of all the sensors that are now available and the ones 
that we are fielding, so we can go forward and do this in a way 
that we can do it better than we are today.
    Mr. Wittman. Thank you, Mr. Chairman.
    Mr. Kim. Going to have to cut you off there. We are going 
to turn it over to Mr. Brindisi, over to you for 5.
    Mr. Brindisi. Thank you, Chairman.
    And thank you, Secretary, and both Generals for being here 
today. I don't want to belabor the point, General Raymond, 
because I know you talked about this earlier, integrating 
National Guard units into Space Force. And as you know, Space 
National Guard units across eight States are currently working 
on space-related missions, including the triple deuce, which is 
222nd Command and Control, which is in Rome, New York, in 
upstate New York, so I would welcome a further conversation 
with you as we discussed earlier to talk about that 
integration. Thank you.
    General Raymond. Happy to do so.
    Mr. Brindisi. Secretary Barrett, the NDS reoriented our 
strategy to focus on great power competition, ensuring we stay 
ahead in terms of research and development of game-changing 
technologies, like quantum science and AI. And as you know, the 
Air Force Research Laboratories Information Directorate in 
Rome, known as Rome Lab, has been at the forefront of both 
quantum research as well as CUAS [countering unmanned aerial 
systems]. And I wanted to ask if you could briefly speak on how 
you view competition with China regarding these critical 
technologies like quantum and AI, and talk about your vision 
for how we can use our incredible DOD lab base to ensure we win 
this technology competition with China.
    Secretary Barrett. Our ability to compete against great 
powers, especially against China, with their use of technology 
and their trajectory in development, will not be possible 
without using quantum capabilities, without AI, and without the 
kind of leadership that the Rome Labs have demonstrated. We 
will lean upon the outcome, the product of those labs, long 
into the future, so that they are quintessentially pivotal to 
our future.
    Mr. Brindisi. Do you think, just to follow up on that, do 
you think we are investing adequate resources fast enough to 
keep pace with China?
    Secretary Barrett. When it comes to innovation, I always 
feel like there isn't enough, we are not doing enough, but it 
is a high priority.
    Mr. Brindisi. And can you talk a little bit about the Air 
Force's efforts to improve public-private partnerships and 
research of emerging technologies?
    Secretary Barrett. As Chief Goldfein demonstrated in his 
comments, we really are experimenting, doing new things, trying 
new techniques, working in partnerships that previously didn't 
exist. So it is really a great focus of the United States Air 
Force, and really throughout the Department of Defense, on 
making better use of friends, allies, partners, in the United 
States and abroad.
    Mr. Brindisi. Thank you. And I know I had the privilege of 
welcoming Secretary Wilson to Rome Lab last March. I know she 
was very impressed with the innovative groundbreaking work that 
they are doing, and I would extend the same offer to you. I 
think you certainly would be very impressed by what is 
happening there.
    Secretary Barrett. Thank you. I look forward to it.
    Mr. Brindisi. I want to shift real quick to mental health 
and suicide prevention. I also have the privilege of serving on 
the House Veterans' Affairs Committee, and I appreciate in your 
testimony you recognize that suicide is a, quote, insidious 
threat to our force, and it is devastating military families. I 
know the Air Force is focusing on suicide prevention and 
providing our airmen with resiliency skills, but last year, 137 
airmen--Active, Guard, and Reserve--died by suicide. Last year, 
the Air Force's number of suicides was the highest level in 
three decades.
    Can you briefly speak to what the Air Force is doing now to 
address this trend and how you plan to change the Air Force's 
approach as you move forward here?
    Secretary Barrett. This is one of the scourges of our time. 
It is something that is devastating to the morale in our 
communities, and it has been taken seriously, especially by 
Chief Goldfein during this past year as we look to implement 
specific things that can help to move the needle on that. And I 
would invite his attention to it.
    Mr. Brindisi. Yes, General.
    General Goldfein. Sir, suicide is killing more airmen than 
any adversary on the planet. It is an adversary. And the way we 
are attacking it and defending ourselves is through two primary 
efforts. First of all, at the institutional level, we are 
taking a page out of what Special Operations Command very 
successfully instituted called the Preservation of the Force 
and Family. And we are spreading that across the Air Force at 
Operation True North, and we have money in this budget to 
expand that to 14 bases as we continue to expand that out.
    But the most important work that we are doing is at the 
unit level. So we asked each wing commander--Active, Guard, and 
Reserve--to stand down their wing at a time and place of their 
choosing to kick off a yearlong campaign to get after this 
adversary; make it personal, make it continuous. And so we have 
not seen the numbers go down yet, but we are attacking it 
aggressively.
    Mr. Brindisi. Thank you, General, very much. If there is 
things that we can work on as a committee, or even in the House 
Veterans' Affairs Committee, I know this is an area that I have 
great concern and many Members do. So I appreciate your efforts 
in this regard.
    I yield back.
    Mr. Kim. I agree with my colleague on just the importance 
of that issue and what we can do to address suicides in our 
services as well as with our veterans.
    I am going to turn it over to Mr. Kelly now. You are 
recognized.
    Mr. Kelly. Thank you, Mr. Chairman.
    And, General Goldfein, again, thank you for your service. 
You have heard that, but it matters. You have made a difference 
in your 4 years here, and so have all the--the Joint Staff. I 
do ask that we pay attention, and we talked earlier about 
diversity. And I think we have got to change not just diversity 
in who we are getting to fly, but I think we have to change the 
culture.
    So, Madam Secretary, you have kind of faced this, so I want 
you to say, what are we doing to change the culture in the Air 
Force so that minority and women want to be Air Force pilots?
    Secretary Barrett. Well, again, I would invite the comments 
of the chief as having been in those squadrons through his 
career. But, first, getting the law changed was--the irony that 
we were, for much of the Air Force's history, excluding women 
from the opportunity to fly high-performance aircraft. We could 
fly tankers and transports but not fighters and bombers. And 
that took a law change, and it took a bipartisan effort to get 
that to change. But now that means women can be there, but are 
they welcome and how are they included? That has been a longer 
challenge and a longer process. And I would invite the chief to 
speak to that.
    Mr. Kelly. I just wanted--and let me, Chief, I think we 
have got to advertise. We have got to make those young ladies 
and those minorities, they see that TV commercial, and they 
want to go fly fighters for the United States Air Force, or the 
United States Navy, which we are not talking about now.
    Going back to the Joint Chiefs. You know, it really--it's 
probably just me, but it really bothers me that we don't have 
Chief of National Guard Bureau sitting at the table at any 
point in this process. They represent a huge part of our Air 
Force. They represent a huge part of our Army. Yet they are 
never in these budgetary hearings, and although there is one 
Army, one Air Force, one Nation, they still have differing 
things that I think they can add something. So I hope that 
people are out there listening, and we will change that so they 
are here.
    General Goldfein, this is for you. I just hope I can get 
your commitment when we talk about modernizing C-17s, when we 
talk about modernizing our KC-135 46 fleets to do our strategic 
air, the things that we are going to have to continue to do, 
the C-130J modernization that has now been turned off. I just--
I hope that we will stay committed to the Air Guard and Air 
Reserve to make sure that we don't promise them that we are 
going to modernize and then at the last minute, go, well, you 
will get the next go-around and we will put you at the end 
again. So can you tell me what we are doing to keep that on 
pace?
    General Goldfein. No, I can, sir. And I will tell you that, 
you know, Ranking Member Thornberry brought up a comment in the 
beginning about CR [continuing resolution]. And so if I could 
take, you know, 30 seconds and tell you, you know, we have to 
acknowledge, what a CR does is it keeps me from being able to 
do any new starts, hiring civilians. So I pretty much stop.
    But we don't talk enough about what it does to industry. If 
you are a CEO and I am going to industry partners, and I am 
saying, hey, listen, I can't tell you what I am going to buy 
you next year, but I need you to keep a sophisticated workforce 
working, and then I am not sure exactly when I am going to get 
that money, it wreaks havoc. And so much of the modernization 
you talk about, we require industry to be partners with us on 
this, and the CR affects them as bad as it affects me.
    Mr. Kelly. And I agree with that, but I am taking ownership 
for our CR part. But they are not the one who just reallocated 
and not modernized. And so I think we all have to take our 
piece of that, and I just--the other thing I want to go back 
to, Secretary Barrett, you know, we have a great female fighter 
pilot who trains our pilots in Columbus Air Force Base, which 
is in my district, Colonel Samantha Weeks. And so we need more 
role models like her. Although I hope she is not listening, 
because she is not getting me up in one of those jets and 
making me cry.
    Secretary Barrett. Well, I would just tell you that you 
should be proud of your neighborhood in that it was Judy 
Dunaway, a woman from Columbus, that was instrumental in moving 
the law, changing the law to allow women to fly fighters and 
bombers.
    Mr. Kelly. And then just real quick, as ranking member of 
the Military Personnel Subcommittee, EFMP [Exceptional Family 
Member Program] is very, very important to me. And so I want to 
know, Madam Secretary, what we are doing. We are currently 
closing Dover Air Force Base or talking about that. So now we 
are putting those same families out in the local community, and 
we are going to saturate that. What are we doing to make sure 
when we close MTFs [military treatment facilities] that we are 
continuing to take care of our EFMP families and also just our 
regular families of all our service members?
    Secretary Barrett. Well, I will tell you that I chaired a 
meeting yesterday to talk on exactly that subject, and it is 
not being well managed now. We need to figure out if it is too 
broad a category, if we are just not--we are just not meeting 
the needs as well as we should for our families, and that is an 
important topic for us.
    Mr. Kelly. And I had one for you, General, but I am out of 
time. Thank y'all so much for your service.
    Mr. Kim. Thank you.
    I am going to turn it over to Ms. Speier. Over to you for 5 
minutes.
    Ms. Speier. Thank you, Mr. Chairman. Thank you all for 
being here today.
    To you, General Goldfein, if this is indeed your last 
visit, extraordinary service to our country. Thank you.
    To Secretary Barrett, thank you recently for your phone 
call. I also want to alert you to a company in my district 
called Zipline that is working with the Army, is providing, by 
drones, blood supply, drugs, to various locales around the 
world, particularly in Africa right now. But I see a great 
resource there in terms of potentially providing spare parts to 
the Air Force when we have so many of our aircraft down because 
of maintenance issues, which takes me to the F-35 program, 
which I think you answered earlier.
    I was at the Intel [Intelligence] Committee and I regret I 
wasn't here for the response. But how are we going to sustain 
two squadrons outside of Fairbanks, Alaska, if the spare parts 
issue is not dealt with?
    General Goldfein. Ma'am, we have actually made significant 
progress on parts. In the last two combat deployments, we have 
taken, for us with the F-35A in the Middle East and with the 
Marine Corps who went to the Pacific, both of those newer 
aircraft were able to establish an 80 to 90 percent mission-
capable rate while they were deployed. That is dependent on 
parts.
    And where we have been focused with Lockheed Martin is 
looking at sustainment and scaling the sustainment enterprise 
so we can have the parts that we need going forward.
    Ms. Speier. Are we looking at 3D [three-dimensional] 
printers?
    General Goldfein. We are, as a matter of fact, yes.
    Ms. Speier. All right. Maybe you could, for the record, 
provide us some additional information of how you are utilizing 
that.
    General Goldfein. Absolutely.
    [The information referred to can be found in the Appendix 
on page 83.]
    Ms. Speier. Secretary Barrett, the Defense Advisory 
Committee on Women in the Services [DACOWITS] have recommended 
that all Armed Forces implement significant family planning 
education and provide various methods of contraception. There 
is a 60 percent higher rate of unplanned pregnancies in the 
military than in the regular civilian force, and 95 percent of 
all women serving are of reproductive age. So it appears the 
Navy and Marines are doing a better job than the Air Force and 
Army in this area. For instance, the Navy is promoting long-
acting, reversible contraception and other forms of birth 
control at basic training, for those who want it, requiring 
recruits to meet individually with medical providers, and 
providing access to contraception at sick call or walk-in 
clinics to help reduce unintended pregnancy rates. It is, as we 
all know, a readiness issue as well.
    And so I am wondering, even though DACOWITS has recommended 
that the Navy program be implemented in all services, and there 
was instructions in May of 2019, what has the Air Force done in 
delivering this kind of benefit to its servicewomen?
    Secretary Barrett. We had a conversation, again, on that 
topic just yesterday, talking about pregnancy and deployability 
and a variety of things. As a former member of DACOWITS, I care 
about their recommendations. I have not seen the reversible 
birth control topic, so it is something I will take a look at.
    Ms. Speier. All right. And as the chair of the Military 
Personnel Subcommittee, my colleague, Ranking Member Kelly, 
referenced the Exceptional Family Member Program. We had a 
hearing on this issue just a few weeks ago. We had such an 
overflow crowd of families that we had to access a separate 
room. So later this month, we are going to actually have a 
townhall in which we are going to hear from families. And if 
you are inclined to participate, we would welcome your 
participation.
    I think that one of the issues we are going to have to look 
at in the NDAA this year is providing at each installation a 
legal representation--representative who can assist these 
families in meeting with local school districts and providing 
the appropriate independent education plan that they each 
deserve.
    And, General Raymond, let me conclude with you. I had the 
privilege just last week of being at the Space Command and also 
at the Air Force Academy. There is so much enthusiasm for the 
Space Force that it is a great shot in the arm. At the time I 
visited, I understood that there were actually two persons 
associated with the Space Force: you and your deputy. Has that 
number increased at all?
    General Raymond. Well, first of all, thank you for 
visiting. The team really enjoyed hosting you. There is 
actually one, and that is me.
    Ms. Speier. Oh.
    General Raymond. We are about to swear in the Senior 
Enlisted Advisor, which will be No. 2. And then really 
exciting, this May, out of the Air Force Academy, about 65--
don't quote me on the number--63 or----
    Ms. Speier. Well, they had told us 60 at the----
    General Raymond [continuing]. Will get directly 
commissioned into the United States Space Force. And then the 
rest of this--throughout the fall, we will start transitioning 
more. So there is one person officially on the books. We have 
about 16,000 airmen and civilians assigned to the Space Force, 
and we will take portions of those and move them over onto the 
books of the Space Force.
    Ms. Speier. Thank you.
    General Raymond. I also want to thank you for your efforts 
on EFMP. It is really important. It is really important work. 
And I would love to come by and have an office----
    Ms. Speier. Oh, would you? If you would like to participate 
in the townhall, we would enjoy having you as well.
    Thank you. I yield back.
    Mr. Kim. Thank you.
    We are going to turn it over to Mr. Waltz now.
    Mr. Waltz. Thank you. Thank you, Mr. Acting Chairman. 
Appreciate it.
    General Goldfein, thank you for being in the fight all 
these years. And to you and all the airmen, I wouldn't be alive 
today and wouldn't be sitting here representing north Florida 
if it weren't for the United States Air Force. And I also want 
to thank you and commend you, and you as well, Secretary 
Barrett, for your work on light attack. We had this 
conversation a year ago. I just attended another Green Beret 
funeral yesterday from Afghanistan. This capability is, in my 
opinion, which we know well, has been long overdue and needed.
    I am pleasantly just really grateful and stunned at the 
supersonic speed with which you have moved to put the MOU 
[memorandum of understanding] in place with SOCOM [U.S. Special 
Operations Command], to put the money in the FYDP and in this 
year's budget to transfer over to SOCOM to procure those 
assets.
    I want to be clear on one piece, because I fear there could 
be some confusion out there. You have had a lot of questions 
and talk about retiring the A-10 airframes, close air support 
airframe. Obviously, the light attack is an overwatch, 
different function. You agree with me, and I want to get out 
there on the record, those are two totally separate, divorced, 
independent moves. That is not a--that is not, not, not, a 
drawdown of A-10 for light attack; those are completely 
separate drivers?
    General Goldfein. Completely separate.
    Mr. Waltz. Thanks, Chief.
    Secretary Barrett, I look forward to seeing you--switching 
to space, I look forward to seeing you at the renaming, and you 
as well, General, at the renaming of Patrick Air Force Base to 
Patrick Space Force Base. I understand--apologies, I wasn't 
here with Representative Lamborn, but I understand from your 
answer to him on the command issue, you are going to open that 
kind of competition, for lack of a better word, but open that 
selection process up. I think the Futures Command process that 
the Army went through was very fair and reasonable and open and 
gave communities a chance to kind of make their case. Is that--
is that my understanding from----
    Secretary Barrett. That is right. In fact, we are working 
with the Secretary of Defense, who was a part of the Futures 
Command process, and that is informing what we will be doing in 
opening the Space Command competition.
    Mr. Waltz. You still expecting an announcement this year?
    Secretary Barrett. Yeah, this year. This year to announce 
the process and to get the process going, and a selection by 
the end of this year or early next year.
    Mr. Waltz. Great. Thank you, Madam Secretary.
    General Raymond, thank you for the visit yesterday. I just 
want to reinforce my colleagues, we talked about the Guard 
issue and where we are on that. I just wanted to give you a 
minute to talk about the space threat. There are few briefs 
that really make the hair on the back of my neck stand up, like 
what our adversaries are doing in space. And I have taken it on 
to just help our voters, help Americans understand how 
dependent our economy is on space, how dependent every 
individual in this room is, how we touch space 20, 30 times a 
day without even realizing it, and how our assets have to be 
protected. But we have to get to a deterrence model, and we 
can't get to a deterrence model with our adversaries in the 
world understanding what we are capable of doing unless we can 
talk about it. And I just wanted to--over to you, General.
    General Raymond. I really appreciate that question. 
Clearly, space is a warfighting domain, just like air, land, 
and sea. That is why the Space Force and U.S. Space Command are 
so critical. We do not want to get into a fight that begins--
excuse me--or extends into space. We want to deter that from 
happening. I think it is really important that America 
understands--the average American understands, just as you 
said, how reliant they are on space capabilities, but also the 
growing threat. Everything from reversible jamming of 
communication satellites and GPS satellites to directed energy 
weapons----
    Mr. Waltz. And when we say--just to be clear, when we say, 
you know, our modern economy and society is dependent, 
agriculture, banking, telecommunications----
    General Raymond. Across the board.
    Mr. Waltz [continuing]. Weather, disaster, across the 
board----
    General Raymond. Right. And so----
    Mr. Waltz [continuing]. Farming.
    General Raymond. Yeah. So not only does it fuel our 
American way of life, but it also fuels our American way of 
war. And there is nothing that the joint and coalition force 
does that isn't enabled by space. Absolutely nothing. And so--
--
    Mr. Waltz. Thank you. And just in my remaining time, if you 
could submit for the record, I think it is important too, I 
also sit on the Science, Space, and Technology Committee, so I 
see the civilian side of what we are trying to do with the Moon 
and Space Station and others, and how the Space Force and NASA 
are working together so that we can still operate in a 
challenged space so that NASA can operate in a challenge--if 
you could submit that for the record.
    General Raymond. I absolutely will. We are working closely 
together.
    [The information referred to can be found in the Appendix 
on page 83.]
    Mr. Waltz. Thank you. Thank you, Mr. Chairman.
    Mr. Kim. Thank you.
    We are going to now recognize Mr. Carbajal. Over to you for 
5 minutes.
    Mr. Carbajal. Thank you, Mr. Chair. And welcome to all of 
you, and thank you for your service.
    General Goldfein, I am sad to hear that you are going to be 
leaving us in the near future. And as my colleague 
Representative Brown said, I do hope you stay engaged, because 
your perspective and insight and wisdom will be greatly 
appreciated in a continued way, so----
    Vandenberg Air Force Base is located in my district. Its 
mission is to enable space superiority through assured access 
to space by providing robust, relevant, and efficient spaceport 
and range capabilities for our Nation. I understand in November 
2019 the Air Force Space Command held an interagency tabletop 
exercise focused on the future of military launch facilities 
and how they can also support growth in commercial space.
    To any of the witnesses, how did the exercise help the 
Department understand what investments and policy changes are 
needed to meet the growing demand for space launch resources on 
our ranges? What are the next steps?
    And, General Raymond, I know you were--you commanded 
Vandenberg Air Force Base at one point. So----
    General Raymond. Second Lieutenant Jay Raymond showed up at 
Vandenberg 36 years ago. Been stationed there four times. It is 
an absolutely critical, critical place for national security 
and national security space. Assured access to space is a vital 
national interest, as laid out in the National Security 
Strategy. Vandenberg has a critical part in that, as does Cape 
Canaveral and others.
    To meet the warfighting demands of this domain and the 
strategic environment of this domain, we have to increase the 
capacity of our launches. We have to reduce the costs. We have 
to lower the barriers of entry into space. We have to 
capitalize on a--this is a terrible word to use in the space 
business, but an explosion of commercial space capabilities. 
And so we are working on a vision for the future, a range of 
the future, getting after autonomous operations, being able to 
have plug-and-play ranges, being able to have a more resilient 
range, being able to increase those launch rates, reduce costs, 
and reduce duplication between us and, for example, the FAA 
[Federal Aviation Administration] that licenses commercial 
launches. So as we put this vision together, this tabletop 
exercise helped inform that vision writing.
    Mr. Carbajal. Did infrastructure come up at all in terms of 
the need to be able to build up----
    General Raymond. Absolutely. You know, if you look at--I 
mean, I have been in the launch business for years. And, 
historically, when we conduct launch operations, because we 
have to be able to destroy everything that is launched for 
public safety if it were to go astray, we have large amounts of 
infrastructure, as you know, to do that launch, to support that 
launch. Where industry is going is, that is all autonomous. 
That allows us to change the range, reconfigure the range very, 
very quickly. It reduces launch costs considerably, and I think 
it is what is enabling commercial space competition to come 
back to the United States.
    Mr. Carbajal. Thank you, General.
    General Goldfein or Secretary Barrett, any other comment?
    Secretary Barrett. Nothing to add.
    Mr. Carbajal. Thank you.
    General Raymond, you have called for investments in 
infrastructure and changes in how ranges are managed so they 
are more responsive to national security and economic demands 
for space launch. Can you elaborate on your assessment a little 
bit more that we touched on just a little bit? Are you working 
with the ranges to identify and then prioritize the necessary 
infrastructure investments?
    General Raymond. We absolutely are. The big thing--my big 
push was to make sure that we have common architectures between 
both coasts to help reduce costs and reduce overhead. We also 
want to have a plug-and-play capability. Historically, when a 
launch vehicle wanted to come to, let's say, Vandenberg to 
launch, it would take us years to work through all the 
paperwork to be able to get them onto the range and launch them 
safely. We need to speed that up. We have to get much quicker 
in our ability to launch. I am excited for where we are going. 
We have already made significant strides. Vandenberg is a 
critical part of that. Already made significant strides, but we 
have to get the plug-and-play, data-driven ranges that will 
enable us to do what we need to do for national security.
    Mr. Carbajal. Thank you, General.
    And let me just conclude by saying, the district, the 
stakeholders, the communities around Vandenberg are extremely 
excited about not only what this means for our national 
security, but what it will mean for our area in terms of the 
economy and the investments we make. So I want to thank you, 
and ask that you please continue to consider the importance of 
Vandenberg as it relates to our advantage.
    General Raymond. It is a critical, critical, strategic 
location and capability. Our major command and control 
capability for all DOD space resides on that base. It is hugely 
important to us.
    Mr. Carbajal. Thank you.
    Mr. Chair, I yield back.
    Mr. Kim. Thank you.
    We are now going to recognize Mr. Scott for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    General Goldfein, General Raymond, Secretary Barrett, thank 
you for being here. I have a couple of concerns that I 
mentioned yesterday, that I will just state for the record. And 
I know the Air Force is going to give me answers on this. But 
moving $8 billion of the weapon system sustainment to OCO, out 
of base funding and into OCO, I have serious questions about 
that from a long-term strategy, and appreciate the opportunity 
to speak with you about that earlier, and look forward to more 
detail on that, but that is something that I think we as a 
committee will have to work to fix. The base funding is more 
stable than OCO funding, as you know. And want to speak further 
about that.
    I do want to speak briefly on the JSTARS [Joint 
Surveillance Target Attack Radar System]. I am concerned that 
the money for updating the Common Data Link is not enough to 
actually execute the program. Historically, it has been in the 
$20 billion level, and my understanding is the request this 
year is at the $3 billion level. The fiscal year 2019 NDAA has 
said that the Air Force shall provide not fewer than six 
dedicated E-8C JSTARS aircraft each fiscal year for allocation 
and support to the combatant commands. There is only $11 
million requested in fiscal year 2021 for--$11 million total 
for all of the upgrades and modernizations, $3 million of 
which, as I understand, is for the Common Data Link. I mean, do 
you believe this is enough to provide the combatant commanders 
with the six that are required in the fiscal year 2019 NDAA?
    General Goldfein. Sir, what we funded throughout this is, 
as we have discussed this, that when we did the infrastructure 
work on the JSTARS to determine that it could fly into the late 
twenties, 2027 and beyond, that is what allowed us to bridge 
without a gap to Advanced Battle Management System [ABMS].
    Mr. Scott. That is right.
    General Goldfein. The point on data links that you make, we 
are actually levering technology. And I would actually like to 
sit down with you in a closed setting and walk you through 
where we are going with some unconventional work we are doing 
on data links that allow us to actually bridge between systems 
using some new technology that actually industry has made 
available.
    I will just give an example. We were able to use a Valkyrie 
drone to actually have F-22s and F-35s communicating through a 
universal translator. We are finding that we can do that more 
often, which is what you are seeing in some of the budget 
numbers.
    Mr. Scott. Okay. But we do have the agreement that we are 
going to fly the JSTARS until ABMS has proved that it can 
handle----
    General Goldfein. Yes, sir.
    Mr. Scott [continuing]. The GMTI [Ground Moving Target 
Indicator] mission and the command and control aspect of war?
    General Goldfein. Yes.
    Mr. Scott. And my concern is, as somebody who has both ABMS 
and JSTARS at their base, if we are talking about it from the 
soldiers' standpoint, my concern is that we start--we are 
seeing what appears to be the starting of the JSTARS mission, 
when we are going to have to depend on that platform at least 
into the 2030s, as I think there is broad agreement on. And so, 
$11 million in upgrades and modernization, is not much money 
when you are starting to talk about a legal requirement to 
maintain six aircraft for the combatant commanders.
    As you know, and this was brought up yesterday, and this 
has been reported widely, Breaking Defense probably had the 
toughest article, I think, on it, where the leadership at Army 
Futures and Concept Centers expressed concerns about ABMS. Can 
you tell me how you are working through that with the Army?
    General Goldfein. Yes, sir. And I will tell you that--I 
will tell you three things. Number one, Chairman Milley's 
guidance to all of us, and certainly to me as the Chief of 
Staff of the Air Force, since we are responsible for leading 
the effort on command and control of the joint warfighting 
concept, his guidance was crystal clear, which is, we are not 
to build a single-service solution. What we are to do is to 
preserve the investment that each service has made connecting 
itself, whether that is IBCS [Integrated Battle Command System] 
for the Army or what the Navy and the Marine Corps. Our job is 
to figure out, okay, how do we take that investment, preserve 
it, and actually connect it so we can fight better as a joint 
team.
    We are going out in April--we just completed in December 
our demonstration No. 1. We are doing our next demonstration 
with all the Joint Chiefs there, and we are going to take three 
combatant commanders, of which one is at the end of the table, 
General Raymond, and he is going to be the supported commander 
for the first part of this exercise, this demonstration. And we 
are going to connect capabilities, because he is going to need 
an all-domain solution for a problem that he is given in this 
demonstration.
    Then we are going to shift to General O'Shaughnessy for 
defense of the homeland, and then we are going to shift to the 
STRATCOM commander. All the services are going to be 
represented. And we are going to be doing live fly. We are 
going to be doing live fly at White Sands Missile Range with 
the Army, live fly Yuma at the--with the Marine Corps, live 
with the Navy off the Gulf Coast, and live with the Air Force 
at Nellis. So this is going to be a big demonstration, and we 
are doing this every 4 months to make sure that we bring this 
together for the entire joint team.
    Mr. Scott. Well, I appreciate your comments, and thank you 
for your service. I just--make sure we are moving in that 
direction with the integration of all of the--all of the 
services as we develop this system.
    General Goldfein. Yes, sir.
    Mr. Kim. Great. Thank you.
    I am going to turn it over to Ms. Haaland for 5 minutes. 
Over to you.
    Ms. Haaland. Thank you, Chairman.
    And, General Goldfein, Secretary Barrett, and General 
Raymond, welcome to our committee hearing.
    I first want to say that I am appreciative of the 
conversation about women and people of color to find success in 
the ranks of our Armed Forces, specifically pilots. And as one 
of the first Native American women ever elected to Congress in 
our country's history, I completely understand when there is no 
role models to see in those areas, that it is hard for young 
women to believe that they can achieve those goals. So I feel 
like once we get it started, it will--it will change the 
trajectory of what we are trying to do. So I appreciate your 
commitment to seeing that through.
    Secretary Barrett, I will start with you. You recently 
spoke about flat budgets being a reality the Department must 
face and that your OSD leadership have made it a priority to 
seek the best value for every dollar in the budget. In my own 
district, there are valuable resources not fully used, from 
empty ramp space, hangars and ops facilities, to talented 
citizen airmen that cannot deploy. There is untapped potential 
available to meet Air Force needs.
    The New Mexico Air National Guard is currently organized 
with no aircraft assigned there. And over 300 airmen currently 
do not contribute to service readiness recovery efforts. In 
fact, more than a third of the airmen assigned to the 150th 
Special Operations Wing are in nondeployable billets with zero 
operational requirements. This issue has limited the New Mexico 
Air National Guard in developing the future commanders needed 
to lead the wing, and forced our State to look to other States 
to fill these roles.
    Given your role in organizing, supplying, equipping, and 
training our brave airmen, what efforts are being made to 
identify Guard and Reserve capabilities that are currently 
underutilized throughout the Air Force?
    Secretary Barrett. Thank you, Ms. Haaland, for that 
comment. And let me just say on your first point that I am 
flanked by two people who really do care about people's 
capability, rather than whether it is what gender or what color 
people are. They are very--we happen to have leadership that is 
very caring and inclusive. So that is a help.
    Ms. Haaland. Yes.
    Secretary Barrett. On the topic of Guard utilization, that 
is a--I will have to get--take a closer look at it and get back 
with you on, especially the New Mexico utilization rates.
    [The information referred to can be found in the Appendix 
on page 84.]
    General Goldfein. And can I just----
    Secretary Barrett. May I ask the chief to----
    Ms. Haaland. Yes, please.
    General Goldfein. Ma'am, I will just tell you that it 
should not be lost on you that probably one of the most 
important hires that we have made as an Air Force is our 
director of Legislative Liaison, who is here, Major General 
Select Chris Finerty, who is an Air National Guardsman, who 
speaks on behalf of the entire United States Air Force when we 
present to you our budget. I have stopped meetings--not many, 
because the word got out--I have stopped meetings in the 
Pentagon when I looked around and I did not see Lieutenant 
General Rice or the director of the Air National Guard or the 
commander of the Air Force Reserves in the meeting. We don't 
have meetings, especially on budget topics, if they are not in 
the room.
    And so you have our commitment to ensure that this one Air 
Force is going to move forward together.
    Ms. Haaland. Thank you. I appreciate that.
    And, General Goldfein, I will go next to you. I want to 
take a moment to talk about a group of airmen that I know are 
near and dear to your heart and your vision for the future of 
the Air Force special warfare missions.
    As you know, our PJs [Pararescuemen] and combat rescue 
officers are elite warriors and the only U.S. force dedicated 
to combat search-and-rescue operations. They spend 2 years 
completing the rigorous training course after another to earn 
the maroon beret and the PJ distinction. They spend the bulk of 
that time training at Kirtland Air Force Base, which is also in 
my district. We are proud to be the home of the pararescue 
school and are eager to see their full campus, including a 
suitable range and operations facility, come to fruition.
    What is your vision for the future of the special warfare 
community and the role of these elite airmen in Joint All-
Domain Operations?
    General Goldfein. Well, ma'am, first of all, thanks for 
your advocacy for that group. I wouldn't be sitting here today 
if it weren't for them. You know, these things they do that 
others may live, I am one of them.
    So our vision for the future is to ensure them that, quite 
frankly, they have what they need to succeed. But not only in 
the fight of today and the one we have been in for the last 19 
years, but just as importantly, they are doing a lot of 
creative thinking right now on what does combat search and 
rescue look like in 2030. And it actually brings forward 
capabilities that we are doing some exciting work on.
    And one of the individuals involved in that is our Chief of 
Acquisition, Dr. Will Roper, who is doing some really creative 
work building, actually, new industries out there, with 
bringing them in for pitch days, and for small business 
contracts so we can provide technology very quickly to our 
frontline warfighters.
    Ms. Haaland. Thank you so much.
    And, Chairman, I yield.
    Mr. Kim. Thank you.
    I am going to turn it over to Mrs. Hartzler. Over to you 
for 5 minutes.
    Mrs. Hartzler. Great. Thank you very much.
    And I want to be the last member of this committee to 
certainly wish you well, General Goldfein. It has been an honor 
to get to know you, and I appreciate your service, as well as 
your wife's and your family's, all this year. So hope that we 
will continue to see you and glean from your knowledge into the 
future. And I know the men and women and the airmen of Whiteman 
Air Force Base have appreciated your support as well.
    And, Secretary Barrett and General Raymond, I look forward 
to continuing to work with you, and appreciate all of your 
service as well.
    Wanted to talk about the mix that we discovered last year, 
and I supported, of fourth- and fifth-gen aircraft. And I know, 
General Goldfein, you had a quote last year, where you said, we 
are going to be mixed well in the 2030s of fourth-gen and 
fifth-gen fighters, and they complement each other, one plus 
one, fourth-gen plus fifth-gen actually equals three fighters, 
if they are used correctly, because they each make each other 
better. And I certainly agree with that.
    However, now that we have seen the new budget, I was 
surprised to see a decrease of $300 million and six F-15EX 
aircraft that were originally planned to be in this budget. So, 
I guess, do you still stand behind last year's comments about 
the benefits of both, and could you speak to the justification 
for decreasing those aircraft?
    General Goldfein. Yes, ma'am, I stand by that a hundred 
percent. And we are still committed to--we are committed to the 
F-35 program of record, and we are committed to the F-15EX 
program as well. A flat budget with 2 percent less spending 
capacity requires us to do some trades, and the F-15EX that you 
talked about were one of those trades.
    Mrs. Hartzler. Okay. Very good. Well, it is not very good, 
but I appreciate your explanation.
    So one of my other colleagues mentioned a very important 
topic, and I know, Secretary Barrett, you weighed in as well, 
asked General Goldfein about how important it is that we go 
after the suicide problem. And I appreciate your attention to 
that. I just wondered if as you are looking at all the 
different options, if you are considering faith-based, 
nonprofit programs as part of the options for airmen who are in 
need of hope and healing. I have been looking at a lot of the 
different options to go after this problem, and I have been 
very encouraged by a lot of nonprofit organizations out there. 
They are doing amazing work with sometimes a hundred percent 
success rate for the individuals who go through these programs. 
And right now, I don't see those as being integrated into our 
military or made available to them. So are you exploring those 
options as well?
    Secretary Barrett. I will ask the chief to address it.
    Mrs. Hartzler. Sure.
    General Goldfein. Ma'am, I will tell you what, on this one, 
there is no bad idea. We are actually looking--we are looking 
everywhere. The Marine Corps has actually had--they have had an 
interesting program that we are looking into now as well. And 
so as we go after this, and I say it again, suicide is an 
adversary, right? It has taken more airmen than any adversary 
on the planet.
    We are attacking it primarily through engaged leadership at 
the unit level. We think that is where it is going to have the 
most impact. And so what we are doing with the tools that we 
are putting available is making sure at the local level that 
they have access to some of these best ideas. I would love to 
come by and talk to you about what you are seeing, and see if 
we can bring as many of these nonprofits into our businesses as 
possible. Because we got to keep it fresh and we got to keep it 
personal.
    Mrs. Hartzler. Yes, absolutely. And I think holistic, which 
these programs encompass, not just the mental and physical 
issues, but also the spiritual, or the heart. So, yeah, I look 
forward to that discussion.
    Wanted to shift a little bit to what I learned last week on 
a CODEL out to Beale Air Force Base. And with my colleagues, 
Donald Norcross and John Garamendi, we met with the 9th 
Reconnaissance Wing and the 12th Reconnaissance Squadron who 
fly the Global Hawk, Block 20s and Block 30s. The budget 
request this year proposes to divest the entire fleet of Block 
20 and Block 30 Global Hawks. So that is 4 and 20 systems, 
respectively, as you know. And I am concerned about the ISR 
risk that we may be accepting here. Because the Block 20s are 
critical communication gateways that are being used 
extensively, as you know, in CENTCOM [U.S. Central Command]. 
The Block 30s are conducting missions in almost every 
geographical region of the world.
    So would you please elaborate on what is driving this 
decision to divest these critical ISR assets, and are there 
alternatives that we can use to address this loss in capacity, 
and how did you coordinate this decision with the combatant 
commands? In 10 seconds.
    General Goldfein. Yeah. Thanks, ma'am. So with the 
combatant commanders, I will just tell you that this is the 
tension that you always see. Combatant command has got about a 
2-year problem that they got to fix, and they got real mission. 
And I am coming--I am looking at building an Air Force with 
Chief Raymond, Air and Space Force for 2030. So that tension is 
always there.
    We are keeping the U-2 flying. You will see the money in 
there to sustain the U-2 flying for high-altitude operations. 
It has the size, weight, and power to be able to do even more 
things than it is doing today. We are buying capability on the 
classified side that I would like to come by and talk to you in 
a closed session, that offsets some of the risk.
    And perhaps some of the most important work that we are 
doing is that every platform, sensor, or weapon that we field 
across all the services, not just the Air and Space Force, is a 
sensor, is a computer, and if we can connect them together, 
with common digital engineering and common data architecture, 
we actually get more capacity just by being more--getting more 
use out of what we have. All that comes together to be able to 
mitigate the risk.
    General Raymond. As a combatant commander and a service 
chief, I feel that tension every day and I get to write myself 
letters and say, why did you do that? Because on the one hat, I 
am looking at that near-term risk. On the other hat, we are 
looking to build and get to the future faster.
    Mrs. Hartzler. Okay. Thank you so much.
    Mr. Kim. Great. Thank you.
    Well, with no one else lined up for questions, I just 
wanted to take this time again to just thank the three of you 
for coming out here today. As you can see, a wide range of 
issues that we are excited to work with you on. And as someone 
who has worked alongside the Air Force for a number of years, 
it is just my great honor to continue to do so.
    Again, just conclude by saying, General Goldfein, thank you 
so much for your service. I know you are going to desperately 
miss these types of hearings in your retirement, but I am just 
grateful for you coming out one more time and sharing your 
knowledge and expertise with us.
    With no further business in front of the committee, we are 
now adjourned. Thank you.
    [Whereupon, at 12:45 p.m., the committee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             March 4, 2020

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 4, 2020

=======================================================================
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 4, 2020

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MS. SPEIER

    General Goldfein. The Air Force has and remains committed to 
pursuing advanced manufacturing technologies including 3-D printing to 
improve readiness and reduce cost. The SecAF stood up the Rapid 
Sustainment Office (RSO) July 2018 for this very purpose. We will 
continue to push the envelope in 3-D printing during our first Advanced 
Manufacturing Olympics virtual event in November 2020, which will focus 
on bringing together a broad community from industry, academia, and 
government to compete in technical challenges to solve the Air Force's 
most significant manufacturing issues, with a heavy focus on 3-D 
printing. With specific regard to 3-D printers, the Air Force has 120 
large scale printers spread across our depots, flight lines and labs 
collectively capable of printing metal, polymer and composite 
materials. We leverage these 3-D printers to mitigate spare parts 
challenges and to locally manufacture readiness enabling tooling and 
fixtures for our depots and flight lines. To date, we have delivered 
1,436 parts. In addition, to foster innovation at the level of command 
that makes the greatest impact, Squadron Innovation Funds (SIF) are in 
place so commanders can tackle their most pressing readiness 
challenges. In many cases, Squadron Innovation Funds are being used in 
``Spark Cells'' at bases across the Air Force to purchase low lot 
production 3-D printers.   [See page 45.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. WALTZ
    General Raymond. As you correctly assert, our nation's space-based 
advantages are at risk. We also recognize it is impossible to 
accomplish our space missions alone. Military, civil, and commercial 
space cooperation is a critical element of our efforts to organize, 
train, equip, and present space forces that will deter adversary action 
in space and if necessary, fight and win in that domain. The U.S. Space 
Force has a well-established and strong partnership with NASA which 
includes routine engagements to establish priorities and areas of 
collaboration. NASA's ability to operate in a highly contested 
environment is supported by our space domain awareness and assured 
access to space efforts. Space domain awareness is the foundation upon 
which the Department maintains spaceflight safety, provides indications 
and warning, and assesses adversary intentions. The FY21 budget request 
continues investment in our new Space Fence radar system which declared 
initial operational capability on 27 March 2020. Once fully 
operational, Space Fence will improve accuracy and the timely detection 
of space threats to assets in space, such as GPS satellites and the 
International Space Station. Assured access to space is fundamental to 
sustaining our freedom of action in space and the Space Force has taken 
the lead in advocating for National Security Space Launch investments 
in the FY21 budget request. While our priority remains ensuring the 
Nation can launch all national security space payloads, our strategy 
includes ensuring this essential element of space power is also 
available for civil, commercial, scientific, and exploratory purposes. 
An area we see ripe for future collaboration is on developing 
responsible norms of behavior for the space domain. Once developed, 
these norms will help both NASA and the Space Force operate safely and 
effectively in a congested and contested domain.   [See page 48.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BROWN
    General Goldfein and General Raymond. Congressman, thank you for 
the question. To maintain the Air Force's agility, combat power, and 
dominance we must meet hard challenges with creative solutions. A world 
of multi-domain operations requires that our rated force (pilots, 
combat systems officers, air battle managers, and remotely piloted 
aircraft pilots) is diverse and has leaders with a diverse background, 
experiences, and thoughts who can see the challenges from different 
perspectives. Accessing people from differing backgrounds provides 
broader range of tools and knowledge to maintain readiness. The Rated 
Diversity Improvement (RDI) Strategy and Action Plan encompass 17 
initiatives to improve diversity and inclusion across the rated 
lifecycle. The programs tap currently unused resources of potential 
recruitment, which could relieve the aircrew manning shortage. Our 
accessions team is currently partnering with professional organizations 
such as the Organization of Black Aerospace Professionals (OBAP) and 
Women in Aviation (WAI) as exclusive partners of the Air Force. 
Moreover, we are targeting Historically Black Colleges and Universities 
(HBCU) and Hispanic Servicing Institutions (HSI), encouraging students 
at these schools to explore aviation programs. ROTC detachments are 
emphasizing aviation degrees as well as exposing students to all of the 
rated opportunities the Air Force has to offer. The Air Force is 
committed to eliminating barriers to rated service for underrepresented 
groups (URG). We are assessing the tools we use to select those for 
rated service and adjusting these tools in order to eliminate barriers 
to rated service. Further, we have developed the Rated Preparation 
Program (RPP) which encourages current Air Force officers who have 
little or no flying hours the ability to team up with Civil Air Patrol 
(CAP) to gain aviation experience with the goal of becoming a rated 
officer. These programs, among others (like expanding Junior ROTC and 
CAPs outreach to underrepresented groups), helps increase diversity 
within the Air Force's rated community, ultimately creating a stronger 
force to support national defense needs. We look forward to continuing 
to work with you and the committee to build on the success of these 
programs.   [See page 29.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. HAALAND
    Secretary Barrett. The New Mexico Air National Guard's 150th 
Special Operations Wing continues to be a vital partner with the Active 
Component's 58th Special Operations Wing at Kirtland. The training and 
qualification the 150th provides to our Total Force Special Operations 
and Rescue aircrews directly impacts the manning and readiness of those 
field units. On average, they produce >33% of the combined training 
output for three weapons systems with only 20% of the instructor 
manning. As we continue to re-design our force to meet the requirements 
of the National Defense Strategy, we remain fully committed to 
exploring Total Force solutions for any of our operational mission 
decisions.   [See page 52.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 4, 2020

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. CONAWAY

    Mr. Conaway. Secretary Barrett, I am concerned about the future of 
C-17 Globemaster sustainment. The current sustainment arrangement is a 
model program which has delivered 80%+ mission capable rates every year 
for more than 20 years, in a true partnership between the contractor 
and the air logistics center at Warner Robins. Currently, half or more 
of the USAF fleet depot level heavy maintenance is performed by the 
depot, with the contractor augmenting and additional heavy maintenance 
capabilities in San Antonio, Texas. I understand that the Air Force is 
considering a change to the sustainment strategy for C-17 and concluded 
a business case analysis last year.
    The USAF provided HASC a briefing last year of that analysis that 
showed the considered change would have a lower quantitative 
performance score than the current sustainment arrangement and why is 
USAF contemplating a change they acknowledge will reduce mission 
capable rates on a platform that has maintained or exceeded these 80% 
rates for more than 20 years. What are the projected mission capable 
rates each year for the lifecycle of the aircraft under the 
contemplated change? To your knowledge were TRANSCOM and the Guard 
meaningfully consulted in the business case analysis? Why does the USAF 
believe that moving all USAF fleet depot level heavy maintenance 
organic would be cheaper?
    Secretary Barrett. In 2019, the Air Force completed a Product 
Support Business Case Analysis which suggested that moving more heavy 
maintenance from the contractor's maintenance location to the Air 
Logistics Complex at Warner Robins could result in $7.2B savings across 
the program's life cycle. No changes that would degrade materiel 
readiness were considered, as the ground rules for the analysis 
required all courses of action must maintain current or improve C-17 
virtual fleet performance (USAF and partner fleets). The Air Force's 
Air Mobility Command represented the user throughout the Product 
Support-Business Case Analysis effort. AMC is the air component of the 
U.S. Transportation Command and is responsible for a Total Force effort 
to execute Rapid Global Mobility and enable Global Reach missions. The 
C-17 program office continues to assess feasibility of implementing any 
changes to the system's product support strategy.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Space lift is an integral piece of the Space Force's 
warfighting architecture. I have a two-part question.
    First, understanding the National Security Space Launch Phase 2 
program is currently in source selection can you please provide this 
committee a status of the acquisition?
    Second, do you remain confident this acquisition adequately 
provides for the Space Forces launch requirements?
    Secretary Barrett and General Raymond. The National Security Space 
Launch (NSSL) Phase 2 source selection is scheduled to conclude and 
award two requirements contracts in the summer of 2020. We remain 
confident this acquisition adequately provides for the Space Force 
launch requirements. For the first time in 20 years, the USSF will be 
able to meet all NSSL needs through competitively awarded contracts to 
commercial launch services.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GRAVES
    Mr. Graves. The Air Force is reducing its unmanned capabilities 
across the fleet in MQ-9, EQ-4, and RQ-4 assets. These currently 
support a great deal of ISR and strike capability, as demonstrated 
throughout the last decade and in recent news. These capable assets are 
being reduced and removed in apparent favor of manned platforms which 
can produce a similar capability across a significantly shorter window. 
This shortened window is affected by many human factors--an important 
note since approximately 90% of current ISR requests are unmet, and 
combatant commanders rely heavily on the current fleet. This intended 
plan includes the exposure of human life, which has been evidenced 
through the recent EQ-11 crash in Afghanistan; it also incurs greater 
costs in flight hour expenses, shutdown of unmanned lines and finality 
to any further acquisition, and additional personnel, acquisition, 
modernization, lifecycle, engineer, and training costs for replacing 
programs.
    Given this, I have three questions.
    1. How does the Air Force intend to meet the high volume of 
requested support from Combatant Commanders with a reduction in the MQ-
9 lines being flown from 70 to 60?
    2. How will the MQ-9 continue to fly through the next decade--and 
beyond--with no replacement aircraft or support from the industry line, 
and what will fill the gap left by mishap aircraft and aircraft 
approaching service life limits?
    3. How will the department mitigate human factors such as crew day 
and the potential for physiological episodes while expanding manned 
aviation into areas previously not vulnerable to this factor?
    Secretary Barrett and General Raymond. 1. The Air Force decision to 
end the 10 Government Owned, Contractor Operated (GOCO) combat lines is 
based on reprioritization of capabilities identified in the 2018 
National Defense Strategy and Service direction to implement the Next 
Generation ISR Dominance Flight Plan. The Next Generation ISR Dominance 
Flight Plan ``seeks an integrated, balanced portfolio. To meet the 
challenges of a highly contested environment, the future ISR portfolio 
will consist of a multi-domain, multi-intelligence, government/
commercial-partnered collaborative sensing grid that utilizes advanced 
technology.'' Combatant Command ISR requirements will be addressed 
through a mixture of national, airborne, space, OSINT, and other 
capabilities in development.
    2. The MQ-9A will continue to deliver multi-role capabilities with 
the current fleet beyond the FYDP, while the Air Force evaluates how to 
deliver the multi-role capabilities for future requirements. At this 
time, no platform has been identified to replace the MQ-9A whether 
remotely piloted or manned, but the Air Force is exploring options to 
replace this capability. Pending Congressional approval, the Air Force 
will end MQ-9 aircraft procurement in FY21, with final MQ-9A aircraft 
deliveries anticipated in FY24, based on reprioritization of 
capabilities identified in the 2018 National Defense Strategy. This 
shift in aircraft quantities does not change the Air Force's approach 
to addressing the NDS. The FY21 PB maintains a 60 Government-Owned 
Government-Operated (GOGO) MQ-9 combat line force structure while it 
ends the Government-Owned Contractor-Operated (GOCO) MQ-9 program. 
Ending the MQ-9 GOCO program returns those government owned aircraft, 
ground stations and support equipment to the MQ-9 Program of Record 
(PoR) and reduces MQ-9 PoR out-of-hide maintenance and sustainment 
costs.
    3. As the USAF looks at replacement capabilities for the MQ-9, the 
Next Generation ISR Dominance Flight Plan highlights the ``need to 
repurpose and retool traditional ISR capabilities with disruptive 
technologies, non-traditional assets, sensors, and a hybrid force of 
5th/6th generation capabilities. This will enhance warfighting 
capability across the global reach, power and vigilance tenets.'' The 
only remotely piloted platform the Air Force is replacing with a manned 
platforms in the FY21 budget is outside of the ISR portfolio, where the 
Air Force will consolidate the battlefield airborne communications node 
(BACN) mixed fleet of EQ-4 and E-11A into a fleet of just E-11A. To do 
so, the BACN program is retiring the EQ-4 remotely piloted aircraft in 
favor of the E-11A manned platform, which is more suited to the mission 
and flies the majority of BACN support today. The typical E-11A sortie 
duration is limited to 12 hours or less and they never exceed the 16 
hour max crew duty day. To further mitigate the human factor risks 
within the BACN program, the USAF outfits the E-11A with cutting-edge 
avionics and automation systems to reduce pilot workload. Additionally, 
the USAF is emphasizing training to identify and neutralize the human 
factor threats. At this time, no platform has been identified to 
replace the MQ-9A whether remotely piloted or manned. Furthermore, 
there is no planned expansion of manned aviation to replace the RQ-4 
Block 30.
    Mr. Graves. The Air Force is reducing its unmanned capabilities 
across the fleet in MQ-9, EQ-4, and RQ-4 assets. These currently 
support a great deal of ISR and strike capability, as demonstrated 
throughout the last decade and in recent news. These capable assets are 
being reduced and removed in apparent favor of manned platforms which 
can produce a similar capability across a significantly shorter window. 
This shortened window is affected by many human factors--an important 
note since approximately 90% of current ISR requests are unmet, and 
combatant commanders rely heavily on the current fleet. This intended 
plan includes the exposure of human life, which has been evidenced 
through the recent EQ-11 crash in Afghanistan; it also incurs greater 
costs in flight hour expenses, shutdown of unmanned lines and finality 
to any further acquisition, and additional personnel, acquisition, 
modernization, lifecycle, engineer, and training costs for replacing 
programs.
    a. How does the Air Force intend to meet the high volume of 
requested support from Combatant Commanders with a reduction in the MQ-
9 lines being flown from 70 to 60?
    b. How will the MQ-9 continue to fly through the next decade--and 
beyond--with no replacement aircraft or support from the industry line? 
What will fill the gap left by mishap aircraft and aircraft approaching 
service life limits?
    c. How will the department mitigate human factors such as crew day 
and the potential for physiological episodes while expanding manned 
aviation into areas previously not vulnerable to this factor?
    General Goldfein. 1. The Air Force decision to end the 10 
Government Owned, Contractor Operated (GOCO) combat lines is based on 
reprioritization of capabilities identified in the 2018 National 
Defense Strategy and Service direction to implement the Next Generation 
ISR Dominance Flight Plan. The Next Generation ISR Dominance Flight 
Plan ``seeks an integrated, balanced portfolio. To meet the challenges 
of a highly contested environment, the future ISR portfolio will 
consist of a multi-domain, multi-intelligence, government/commercial-
partnered collaborative sensing grid that utilizes advanced 
technology.'' Combatant Command ISR requirements will be addressed 
through a mixture of national, airborne, space, OSINT, and other 
capabilities in development.
    2. Pending Congressional approval, the Air Force will end MQ-9 
aircraft procurement in FY21, with final MQ-9A aircraft deliveries 
anticipated in FY24, based on reprioritization of capabilities 
identified in the 2018 National Defense Strategy. At the end of the 
FY20 procurement, the Air Force will have on order or in inventory 
upward of 350 MQ-9 aircraft to support 60 combat lines, which require 
up to 144 aircraft in combat at a time. Based on current requirements 
and attrition rates, sufficient aircraft are procured to support 
operations through the next decade and into the 2030s. The FY21 PB 
reduces 10 combat lines with each requiring 2.4 aircraft. Including 
approximately 10 aircraft in reserve, this reduces the Air Force 
requirement by 34 aircraft to just below 350 aircraft overall. Despite 
the end of aircraft production, we will continue to contract with 
industry for sustainment and modification support to ensure sufficient 
aircraft availability through the life cycle of the weapon system. The 
FY21 PB maintains 60 Government-Owned Government-Operated (GOGO) MQ-9 
combat line force structure while it ends the Government-Owned 
Contractor-Operated (GOCO) MQ-9 program. Ending the MQ-9 GOCO program 
returns those government owned aircraft, ground stations and support 
equipment to the MQ-9 Program of Record (PoR) and reduces MQ-9 PoR out-
of-hide maintenance and sustainment costs, supporting a sufficient 
fleet size that accounts for aircraft mishaps and aircraft approaching 
service life limits.
    3. As the USAF looks at replacement capabilities for the MQ-9, the 
Next Generation ISR Dominance Flight Plan highlights the ``need to 
repurpose and retool traditional ISR capabilities with disruptive 
technologies, non-traditional assets, sensors, and a hybrid force of 
5th/6th generation capabilities. This will enhance warfighting 
capability across the global reach, power and vigilance tenets.'' The 
only remotely piloted platform the Air Force is replacing with a manned 
platforms in the FY21 budget is outside of the ISR portfolio, where the 
Air Force will consolidate the battlefield airborne communications node 
(BACN) mixed fleet of EQ-4 and E-11A into a fleet of just E-11A. To do 
so, the BACN program is retiring the EQ-4 remotely piloted aircraft in 
favor of the E-11A manned platform, which is more suited to the mission 
and flies the majority of BACN support today. The typical E-11A sortie 
duration is limited to 12 hours or less and they never exceed the 16 
hour max crew duty day. To further mitigate the human factor risks 
within the BACN program, the USAF outfits the E-11A with cutting-edge 
avionics and automation systems to reduce pilot workload. Additionally, 
the USAF is emphasizing training to identify and neutralize the human 
factor threats. At this time, no platform has been identified to 
replace the MQ-9A whether remotely piloted or manned. Furthermore, 
there is no planned expansion of manned aviation to replace the RQ-4 
Block 30.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. VELA
    Mr. Vela. The DOD recently reprogrammed $532 million from the Air 
Force to the border wall for programs like F-35 Advance Procurement, C-
130J and Light Attack Aircraft. Did the Office of the Secretary of 
Defense (OSD) consult with you before the reprogramming, and did you 
tell OSD that these funds were in excess of programmatic need? What is 
the operation impact to the Air Force as a result?
    Secretary Barrett. The Department of the Air Force was consulted 
prior to the reprogramming of $532 million from the Air Force in 
support of the DHS request for the support along the southern border. 
The Department of the Air Force worked with the Department of Defense 
to minimize the disruption that would be caused by the reprogramming of 
those funds. Providing this support to DHS will not adversely affect 
the military preparedness of the Air Force.
    Mr. Vela. The DOD recently reprogrammed $532 million from the Air 
Force to the border wall for programs like F-35 Advance Procurement, C-
130J and Light Attack Aircraft. Did the Office of the Secretary of 
Defense (OSD) consult with you before the reprogramming, and did you 
tell OSD that these funds were in excess of programmatic need? What is 
the operation impact to the Air Force as a result?
    General Goldfein. The Department of the Air Force worked with the 
Department of Defense to minimize any potential disruption caused by 
the reprogramming of those funds. Providing this support to DHS will 
not adversely affect the military preparedness of the Air Force.
    Mr. Vela. The Air Force in its 2021 budget cut its Reaper UAV 
procurements from 24 last year to zero. This will have a significant 
impact on America's UAV industry. Why the drastic change? And what is 
your plan to better address combatant commanders' ISR requirements?
    General Goldfein. 1. The decision to end MQ-9 aircraft procurement 
is based on reprioritization of capabilities identified in the 2018 
National Defense Strategy. This shift in aircraft quantities does not 
change the Air Force's approach to addressing the NDS. Pending 
Congressional approval of the FY21 PB, the MQ-9A production line will 
begin shutdown in FY21, with final MQ-9A deliveries expected by FY24.
    2. The Air Force continues to pursue our strategy described in the 
Next Generation ISR Dominance Flight Plan to better address Combatant 
Commander's ISR requirements. This flight plan is our encompassing 
strategy about how the service maintains and enhances decisive 
advantage amidst the reemergence of great power competition and rapid 
technological change in the digital era. Driving the strategy are three 
pathways: (1) pursuing disruptive technologies and opportunities; (2) 
using multi-role, cross-domain ISR collection capabilities to bolster 
readiness and lethality; and (3) investing in the foundational 
capabilities of people and partnerships to drive culture change. When 
our flight plan was published in Aug 2018, the former Deputy Chief of 
Staff for ISR and Cyber Effects Operations, Lt Gen (ret) Jamieson, 
clarified that, ``We need to balance our ISR portfolio to meet the 
challenges of a highly contested environment. The future will consist 
of a multi-domain, multi-intelligence, government/commercial-partnered 
collaborative sensing grid. It will be resilient, persistent, and 
penetrating to support a range of options across the spectrum of 
conflict.''
    Mr. Vela. The President recently signed an Executive order 
encouraging the Federal Government to be less reliant on GPS. Can you 
talk to how Space Force will address this Executive order, specifically 
regarding changes in technology? Can you talk to Space Force's current 
ability to protect our GPS?
    General Raymond. While the Executive Order on Strengthening 
National Resilience through Responsible Use of Positioning, Navigation, 
and Timing (PNT) Services is specific to the reliance of PNT services 
by federal and private sectors, the U.S. Space Force welcomes this 
effort to raise the Nation's awareness of the extent to which critical 
infrastructure depends on, or is enhanced by, PNT. We support the 
Office of Science and Technology Policy's effort to create a national 
plan to develop other PNT services independent of GPS while maintaining 
our commitment to enable a secure, robust, and resilient PNT 
capability. As the U.S. Space Force moves on a path toward building 
space combat capability, PNT remains an enduring no-fail mission. We 
are engaged in, and the FY21 budget request supports, multiple 
modernization efforts that ensure our forces around the globe can 
target and defeat threats at ranges that outstrip adversary weapons 
while preserving GPS services essential to our economic and American 
way of life. These modernized capabilities include new, more powerful 
civil and military signals, a cyber-hardened command and control 
system, and next generation military GPS user equipment. The U.S. Space 
Force also continues to support the Department of Defense in its 
defense of GPS's radiofrequency spectrum through appropriate regulatory 
bodies and processes. Consistent with the National Security and 
National Defense Strategies, the Department of Defense's PNT Strategy 
leverages the cornerstone capabilities provided by a modernized GPS, 
with diverse additional PNT sources in a modular open-system 
integration approach to deliver resilient PNT to the Joint force.
    Mr. Vela. How will the Space Force organize to support the 
requirements of the combatant commanders? Will Space Force establish 
separate component commands, or will Space Force responsibilities fall 
under current Air Force component commands?
    General Raymond. The U.S. Space Force will present appropriately 
organized, trained, and equipped forces to all combatant commands in 
accordance with DOD's Global Force Management Implementation Guidance. 
Along with members from the other Services, Space Force personnel will 
be assigned to U.S. Space Command to ensure critical space capabilities 
are integrated and available to all combatant commanders in support of 
interoperability and effective Joint operations. Additionally, U.S. 
Space Command is developing Integrated Planning Elements (IPEs) 
comprised of members from all Armed Forces that will be embedded in 
other combatant command staffs. Space Force professionals will be 
included in these IPEs allowing our space professionals to be connected 
at an operational level to all U.S. warfighting commands, enhancing the 
lethality and effectiveness of the Joint Force.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. CISNEROS
    Mr. Cisneros. The United States created its newest military branch, 
the Space Force, in December 2019. The last time the U.S. created a new 
military branch was over seven decades ago, the United States Air 
Force. Though it is understandable that the organizational construct of 
a new military branch will take time to flush out, it is unclear if 
there will be a Space Guard and Reserve, separate from the Air Force or 
any other existing branch of service. On February 3, 2020, the Air 
Force submitted a report to Congress regarding the Space Force 
organizational plan, which offered no real clarification on the issue. 
My questions are these:
    1. Will there be separate Space Guard and Reserve for the newly 
created Space Force?
    2. If there is to be a Space Guard and Reserve, when can we expect 
to see these units chop from their current parent services to the Space 
Force?
    Secretary Barrett, General Goldfein, and General Raymond. 1. The 
Reserve components play a vital role in the Space Total Force team and 
remains integral toward providing wartime surge capacity, operational 
depth, and seamless support to day-to-day space operations. Air 
National Guard and Air Force Reserve units currently conducting space 
missions are already aligned and integrated effectively with active 
duty units assigned to the Space Force. Over the coming year, the 
Department of the Air Force will develop, assess, and propose to 
formally integrate capabilities provided by the National Guard and 
Reserve into the Space Force. As directed by the FY20 NDAA, we have 
assembled a team of Air and Space leaders that includes members of the 
Guard, Reserve, active duty, and our civilian experts to look at that 
element of our Total Force management strategy. While we have not 
presupposed any outcome, we will continue to work with Congress if 
changes to existing authorities are required following that analysis by 
the Department.
    2. As directed by the FY20 NDAA, the Department of the Air Force is 
assessing the Total Force construct through a 21st century lens and 
developing options for consideration by senior leaders across the 
Department of Defense. While we recognize this is a unique opportunity 
to consider a clean sheet, it is prudent to provide comprehensive 
options for decision-makers, developing and analyzing a Space 
organizational structure for the Guard and Reserve. We will inform 
Congress once our analysis is complete, and submit a proposal to 
Congress no earlier than the FY22 legislative cycle if changes to 
existing authorities are required.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. MITCHELL
    Mr. Mitchell. Secretary Barrett, can you detail the discussions 
taking place within the Air Force about community opposition and 
support for the Air National Guard F-35 Ops 5 & 6 basing decision? Are 
you considering downstream effects on the readiness and training 
opportunities for that F-35 squadron?
    Secretary Barrett. I am aware of comments received from the public, 
both in opposition to, and in support of, the F-35A Ops 5&6 basing 
actions. The 30-day ``wait period'' for Final Environmental Impact 
Statement (EIS) has ended. I weighed the results of the EIS and public 
input, and considered the operational needs of the Air Force and costs 
to our service in selecting the appropriate location for these 
squadrons. I have decided Truax Field, Wisconsin is Ops 5; Dannelly 
Field, Alabama is Ops 6.
    Mr. Mitchell. Secretary Barrett, when can the committee expect a 
final announcement from the Air Force about the Air National Guard F-35 
Ops 5 & 6 basing decision?
    Secretary Barrett. The F-35A Ops 5&6 strategic basing final 
decisions are complete. Truax Field, Wisconsin is Ops 5; Dannelly 
Field, Alabama is Ops 6.
    Mr. Mitchell. Secretary Barrett, can you detail how the Air Force 
is comparing and contrasting the availability of training airspace in 
the Air National Guard F-35 Ops 5 & 6 basing decision? In the Final 
Environmental Impact Statement, it appears that the Air Force is simply 
ranking the training airspace as adequate or not. Is that an accurate 
statement? Alpena Special Use Airspace, for example, offers a 
substantially larger area and more diverse conditions for training 
compared to other airspaces.
    Secretary Barrett. The Air Force Strategic Basing Process assessed, 
amongst many factors, the availability and quality of training airspace 
utilizing an operational perspective to conduct a detailed analysis on 
how well each location could meet the F-35's Ready Aircrew Program 
(RAP) training requirements. The training airspaces near each base were 
quantified based on size, altitudes, availability, and proximity. Taken 
together, this did not result in a single pass/fail grade; rather, it 
was a comparative assessment of how well each location could meet the 
operational mission. The Final Environmental Impact Statement (EIS) did 
not rank training airspace. The EIS assessment is focused on potential 
environmental effects from a potential basing decision at each 
location. The mission capabilities are assessed and evaluated in the 
broader Strategic Basing Process described above.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. Do you intend to issue a recommended reading list like 
some of the other service chiefs?
    General Raymond. Yes. Each fall the Chief of Staff of the Air Force 
publishes a reading list intended to develop a common frame of 
reference among Airmen throughout the Department of the Air Force. The 
current list, developed by General David L. Goldfein, includes several 
recommendations of particular interest to Space Force professionals 
that I intend to build upon. We are currently coordinating our efforts 
within the Department to develop a Chief of Space Operations' Reading 
List that will coincide with the release of The Air Force Chief of 
Staff Reading List in the fall of 2020.
    Mr. Scott. As you stand up the United States Space Force, what can 
be done now to set it up for success and avoid the Space Force becoming 
a ``hollow force'' in the future?
    General Raymond. Proper initial resourcing: The Air Force submitted 
the first ever separate budget request for space as part of the FY21 
President's Budget cycle, identifying approximately $15.4B of 
transferred funding from across the DOD to resource the Space Force. 
With this budget request, the Air Force transferred all funding 
associated with space missions and functions to the Space Force, 
ensuring the new Armed Force was resourced to perform its mission. 
Future funding tailored to threats: Moving forward, the Space Force 
must have stable and consistent funding to enable it to address growing 
threats in the space domain. The Space Force is committed to minimizing 
cost and bureaucracy, but its end strength and budget should reflect 
rising threats from our adversaries. Having an independent budget will 
allow us to continue to advocate for DOD resources so we can protect 
and defend the space domain. Consolidation of space capabilities from 
across DOD: Establishment of the Space Force represents a once-in-a-
generation opportunity to address long-standing challenges associated 
with fractured and disparate space architectures and capabilities. The 
Secretary of Defense has made it clear his vision is to consolidate the 
preponderance of space forces of all armed forces into the Space Force 
to address these challenges. To realize his vision, the Office of the 
Secretary of Defense is leading a study, with Army, Navy, and Space 
Force participation, to identify the missions, functions, and units 
that should transfer to the new service from across DOD.

                                  [all]
</pre></body></html>
